<html>
<title> - Transition Assistance for Members of the National Guard Monday, September 19, 2005 U.S. House of Representatives, Subcommittee on Economic Opportunity, Committee on Veterans' Affairs, Washington, D.C. The Subcommittee met, pursuant to call, at 10:03 a.m., in 157th Air Refueling Wing's Maintenance Hangar, Pease Air National Guard Base, Hon. John Boozman [Chairman of the Subcommittee] presiding. Present: Representatives Boozman, Michaud, and Bradley. Mr. Boozman. The meeting will come to order. Good morning. It really is a pleasure to be here today. Before we begin, I understand that Pease has an outstanding ceremony I don't ever get to do, I'm going to give the command to a military unit to post colors. I want to thank the Color Guard very much for that, and then also I want to thank those of you that are here in attendance today. This is a very special day for us on the House Veterans Affairs Subcommittee on Economic Opportunity. In many ways, it is fitting that we hold our first field hearing on how we are assisting members of the Guard and Reserve to transition from active duty back to civilian life. It is also fitting that we come to New Hampshire, a state that has historically sent many of its sons and daughters to answer the Nation's call to duty not only in times of war, but also in times of disaster elsewhere in the Nation. I hope we will hear about both commitments from witnesses today. Today, New Hampshire is not only known for its quadrennial place in the presidential campaign spotlight, but also that spotlight shines on the special efforts that state and federal agencies are making to provide TAP services and how New Hampshire is setting the standard for ensuring that returning service members transition as smoothly as possible to their life out of uniform. As we set this meeting up, I asked the staff to find the area that did the very best job of doing this, and so again, that's why we are here in New Hampshire, and you all can be very pleased that you've got a tremendous reputation nationwide for providing this service in a manner as well as anybody in the country is doing it. I'm especially pleased that Congressman Jeb Bradley, a member of the Veterans' Affairs Committee, has brought New Hampshire's TAP efforts to my attention, and I am very pleased that he has agreed to bring us here to his beautiful state and to a base that has a long history in the defense of America. Our thanks to him and his district staff for their help making this happen. I also want to thank the 157th Air Refueling Wing for hosting us. I'm pleased that Congressman Mike Michaud from Maine is able to join us today. It shows that despite our occasional disagreements, that we, on the Veterans' Committee, are united in a mission, and that is helping veterans, and I think we are probably one of the most bipartisan committees on Capitol Hill, and again, all of us have chosen to be on the Veterans' Committee, not for partisan reasons, but because we are all very, very interested in helping veterans and the veterans' community. We've got a full day here, as we will visit the V.A. Regional Office in Manchester, which I'm told that you all call ""Manch-Vegas,'' for whatever reason, after we finish the hearing. So again, I want to recognize Jeb Bradley for any remarks that he may have, and then Mike Michaud. Jeb? Mr. Bradley. Thank you very much, Chairman Boozman. It is certainly a pleasure to welcome you here, as well as everybody that's going to participate in this panel this morning. I wish that you had the opportunity to come back in October when the foliage is so great, we were talking about the foliage in your state last night. We also have great foliage, the maple trees turn red. Mr. Chairman, I also want to congratulate you and commend you on your steadfast support for veterans who are, not only</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
Transition Assistance for Members of the National Guard


Monday, September 19, 2005

U.S. House of Representatives,     
Subcommittee on Economic Opportunity,
Committee on Veterans' Affairs,
Washington, D.C.

	The Subcommittee met, pursuant to call, at 10:03 a.m., in 157th Air 
Refueling Wing's Maintenance Hangar, Pease Air National Guard Base, Hon. John 
Boozman [Chairman of the Subcommittee] presiding.
	Present:  Representatives Boozman, Michaud, and Bradley.

	Mr. Boozman. The meeting will come to order.
	Good morning.  It really is a pleasure to be here today. Before we 
begin, I understand that Pease has an outstanding ceremony I don't ever get to 
do, I'm going to give the command to a military unit to post colors.
	I want to thank the Color Guard very much for that, and then also I 
want to thank those of you that are here in attendance today.
	This is a very special day for us on the House Veterans Affairs 
Subcommittee on Economic Opportunity. In many ways, it is fitting that we hold 
our first field hearing on how we are assisting members of the Guard and 
Reserve to transition from active duty back to civilian life. It is also 
fitting that we come to New Hampshire, a state that has historically sent 
many of its sons and daughters to answer the Nation's call to duty not only in 
times of war, but also in times of disaster elsewhere in the Nation. I hope we 
will hear about both commitments from witnesses today.
	Today, New Hampshire is not only known for its quadrennial place in 
the presidential campaign spotlight, but also that spotlight shines on the 
special efforts that state and federal agencies are making to provide TAP 
services and how New Hampshire is setting the standard for ensuring that 
returning service members transition as smoothly as possible to their life out 
of uniform.
	As we set this meeting up, I asked the staff to find the area that 
did the very best job of doing this, and so again, that's why we are here in 
New Hampshire, and you all can be very pleased that you've got a tremendous 
reputation nationwide for providing this service in a manner as well as 
anybody in the country is doing it.
	I'm especially pleased that Congressman Jeb Bradley, a member of the 
Veterans' Affairs Committee, has brought New Hampshire's TAP efforts to my 
attention, and I am very pleased that he has agreed to bring us here to his 
beautiful state and to a base that has a long history in the defense of 
America. Our thanks to him and his district staff for their help making this 
happen.
	I also want to thank the 157th Air Refueling Wing for hosting us. I'm 
pleased that Congressman Mike Michaud from Maine is able to join us today. It 
shows that despite our occasional disagreements, that we, on the Veterans' 
Committee, are united in a mission, and that is helping veterans, and I think 
we are probably one of the most bipartisan committees on Capitol 
Hill, and again, all of us have chosen to be on the Veterans' Committee, not 
for partisan reasons, but because we are all very, very interested in helping 
veterans and the veterans' community.
	We've got a full day here, as we will visit the V.A. Regional Office 
in Manchester, which I'm told that you all call ""Manch-Vegas,'' for whatever 
reason, after we finish the hearing.
	So again, I want to recognize Jeb Bradley for any remarks that he may 
have, and then Mike Michaud.
	Jeb?
	Mr. Bradley. Thank you very much, Chairman Boozman. It is certainly a 
pleasure to welcome you here, as well as everybody that's going to participate 
in this panel this morning. I wish that you had the opportunity to come back 
in October when the foliage is so great, we were talking about the foliage in 
your state last night. We also have great foliage, the maple trees turn red.
	Mr. Chairman, I also want to congratulate you and commend you on your 
steadfast support for veterans who are, not only -- and I thank you for, as 
well as the committee, selecting New Hampshire to hold the field hearing.
	As you know, I wanted to sit on your Subcommittee, but it's certainly 
a pleasure to be here with you today. I look forward to continuing to work 
with you.
	Let me also say what an honor it is to be here with members of the 
New Hampshire National Guard, the very brave men and women who have been in 
Iraq, and Afghanistan, and most recently on the Gulf Coast helping the 
President, another primary contribution.
	In addition, we have here with us today some people who made the New 
Hampshire National Guard reunion and rekindling program so successful. As you 
probably can imagine, successful transition of a soldier home from active 
duty is not a simple measure. Chances are even -- New Hampshire National 
Guard is not a solution for all things, but others at war, but -- National 
Guard indicates -- early support to soldiers, their family and the military.
	When a soldier comes home from active duty, there are critically 
important administrative medical and family issues that have got to be 
addressed. Thankfully, the New Hampshire National Guard meets these needs 
with personal contact in individual -- 
	Once processing is complete, the intention of the program is to get 
the men and women back to their families as quickly as possible. After some 
days off, the soldiers participate in a three-day process -- face-to-face 
transitional counseling is provided, and the VA performs medical and 
dental assessments.  In addition service members -- combat -- on -- 
	The New Hampshire National Guard takes the time to educate, not only 
soldiers, but the families and employers as well. Over 850 National Guard -- 
program, and I look forward to hearing a few of them today, and I'll submit -- 
	Thank you.
	Mr. Boozman. Thank you.
	We will now hear from Congressman Michaud, who is the Ranking Member 
on the Health Subcommittee, and is one of the most active members on the 
Veterans Affairs Committee.
	Mr. Michaud. Thank you very much, Mr. Chairman, and thank you for 
arranging this hearing today on such an important and timely subject.
	I also want to thank Representative Bradley for hosting us today, 
really appreciate that. Representative Bradley had mentioned if you want to 
come back in October you can see the foliage, well, actually, if you want to 
go in the northern part of my district in Maine you can actually start seeing 
the foliage right now, so you don't have to wait until October.
	But, it is great to be here today. The brave men and women and their 
families who make up the National Guard and Reserve forces have earned a top 
quality transition and demobilization of process. These citizen soldiers 
sacrifice a great deal to serve our country, and they and their 
families deserve our best efforts in providing meaningful assistance as they 
return to civilian life and employment.
	So, Mr. Chairman, I'm pleased that we are here today to learn more 
about New Hampshire's demobilization model, as I represent the neighboring 
State of Maine, which has a large number of National Guard and Reserve units 
activated in support of Operations in Iraq and Afghanistan.
	Additionally, not unlike my colleagues on the panel today, I represent 
a state where much of our Guard and Reserve forces are made up of citizens 
from rural areas. So, as you might expect, I'm very interested in any process 
that can improve transition and demobilization services for these members.
	So, to close, I want to welcome all the witnesses here today and to 
thank you.  I am looking forward to your insight and observation, and once 
again, Mr. Chairman, I want to thank you and the Committee staff for coming 
here to New Hampshire today.
	I yield back the balance of my time.
	Mr. Boozman. Before we hear from the first panel, without objection 
all written statements will be made part of the official record, and I will 
ask the witnesses to summarize their written testimony during their allotted 
five minutes.
	Mr. Boozman. Our first panel includes Major General John Young, Acting 
Director of the National Guard Bureau Joint Staff in Washington, D.C.; Colonel 
Deborah Carter, Human Resources Officer for the New Hampshire National Guard; 
and last, but certainly not least, Command Sergeant Major Michael Rice, the 
State Command Sergeant Major for the New Hampshire National Guard.
	Will you lead us off, General? 


STATEMENT OF MAJOR GENERAL RONALD YOUNG, ACTING	DIRECTOR, NATIONAL GUARD 
BUREAU JOINT STAFF; ACCOMPANIED BY COLONEL DEBORAH CARTER, HUMAN 
RESOURCES OFFICER, NEW HAMPSHIRE NATIONAL GUARD; AND COMMAND SERGEANT MAJOR 
MICHAEL RICE, STATE COMMAND SERGEANT MAJOR, NEW HAMPSHIRE ARMY NATIONAL GUARD

STATEMENT OF MAJOR GENERAL RONALD YOUNG

	General Young. Chairman Boozman, distinguished members of the 
Committee, thank you for the opportunity to speak with you today about the 
Transition Assistance Program.
	Today, the National Guard has over 75,000 soldiers and airmen 
mobilized around the world, over 225,000 since 9/11. That is why the 
Transition Assistance Program is such a vital component in our efforts to take 
care of service members and their families. The information received during 
these TAP briefings, and the opportunity to enroll in these vital programs, 
has long-lasting effects on the men and women of the National Guard, their 
families, and their communities.
	I maintain that the effectiveness of the Transition Assistance 
Program will hold long-lasting implications on the long-term health of our 
entire organization. The Transition Assistance Program must be a 
comprehensive program, a continuum of care that begins before the 
service member deploys, continues while he or she is away, and follows 
through after their return.
	TAP must provide for a seamless transition from active duty back into 
the citizen/soldier environment and thereafter. That is why the National 
Guard supports the recommendations contained in the recent GAO Report, and 
why we support programs such as the New Hampshire Reunion and Reentry 
Program. The New Hampshire program is a shining example of how the 
Guard is a family, and how we truly work hard to care for our soldiers, 
airmen and their families. The New Hampshire model clearly demonstrates the 
need to have home station Transition Assistance Programs for the Guard and 
Reserve.
	Many of the decisions made during the TAP process are family based, 
not individual choices. This necessitates that the service member consults 
with family members during the TAP process.
	In addition to the pressing need for a delivery of TAP information 
at or near home station, there exists a need for a more effective follow 
through support, follow through support, in the period immediately following 
demobilization.
	To be truly effective, the follow-on support requires close 
coordination by TAP representatives at the state and local levels. These are 
aspects of the New Hampshire program that have proven to be of great value.
	Earlier this year, the National Guard Bureau and the Department of 
Veterans Affairs signed a partnership agreement, whereby each organization 
commits to an improved seamless process of taking care of our service members 
and their families. The National Guard committed to hiring a States Benefit 
Advisor for each state, and to place them at the Joint Force Headquarters. 
These 54 specialists, along with our over 500 family assistance centers and 
Air National Guard Wing Family Program Coordinators across the country, are 
there to assist our members to access the benefits that they have earned.
	As I've stated earlier this year, I believe that TAP is a readiness 
issue. The way we take care of service members and their families today will 
have a direct impact on how well we recruit and retain them in the future.
	Working with members of this Committee, I believe that the Guard, 
along with DoD, the Department of Labor, and the Department of Veterans 
Affairs, as well as state and local agencies, can dramatically enhance the 
effectiveness of the Transition Assistance Program.
	Sir, I thank you for this opportunity to speak here today, and I look 
forward to your questions.
	[The statement of General Young appears on p. 59]

	Mr. Boozman. Thank you.
	Colonel Carter?



STATEMENT OF COLONEL DEBORAH L. CARTER

	Colonel Carter. Chairman Boozman, distinguished Members of the 
Subcommittee, my name is Colonel Debbie Carter. I'm the Human Resource 
Officer for the Guard, and I am honored to be here on behalf of the Adjutant 
General of the state, Major General Kenneth Clark, to discuss our Reunion & 
Reentry Program.
	In December 2003, the New Hampshire National Guard deployed 
approximately 850 troops to Iraq and Afghanistan. At that point, if you came 
to one of our meetings you would have heard that reentry was, will it be a 
long ceremony or will it be a short ceremony? But, as the year went on 
and we started to see some difficulties with some soldiers and airmen coming 
back on R&R leave, they were the exception. One example, a young wife shared 
with us that her husband stayed in his bedroom for the two weeks, barely 
talked to her and their young child. Some time later, the Department of Health 
and Human Services came to meet with us and said that they had reviewed 
data after Desert Storm and they had seen increases in divorce, alcohol use, 
drug use, et cetera. They were there to lend a helping hand to be more 
preventative.
	At that point, we realized that we needed to be more proactive in how 
we supported troops coming home from combat, and yet we were limited in our 
experience of combat in this organization, so we reached out to others that 
had multiple combat experience, like the 82nd Airborne, the Navy, the 
Marines. We didn't want to just brainstorm this, and we didn't want to start 
learning here, we wanted to learn from somebody else's learning, and that's 
what we did.
	Using the learning, we developed a model that addressed challenges 
specific to the Reserve. A major obstacle is the fact that returning soldiers 
and airmen are geographically separated from battle buddies, from services, 
and from their command, a command that is normally there to assess the 
soldiers and seek out treatment if they need that.
	Additionally, if a Reserve commander sees that a soldier is 
struggling, he or she has limited ability, almost no ability, to mandate any 
kind of treatment.
	We began by training the full-time force and the families. We 
estimated that we trained 300 full-time members in the organization, and 50 
percent of the families of soldiers returning home. We trained them in PTSD, 
suicide prevention, and other issues. Because of the limited access of 
commanders, we were convinced that these would be points of entry for 
soldiers that needed help.
	Once the soldiers get to New Hampshire, they participate in a 
three-day program. Day one is an administrative review, and it also includes 
a safety briefing, where we actually bring state troopers in and they learn, 
or they get a better awareness, how to drive in New Hampshire again 
versus driving in Iraq.  Day two is actually held at the VA Center in 
Manchester, where they are enrolled in the VA and go through many processes, 
which I'll discuss in my results. Day two also includes a one-hour mandatory 
counseling session with the Vet Center, and day three is called the 
Chaplain's Day, which was based on the Navy and Marine Mandatory Warrior 
Transition Program, a program they developed after doing some research after 
Vietnam. This session is all about soldiers talking to soldiers. Soldiers 
talking to soldiers is something that we found that everybody 
that had multiple combat experience thought was a key element in healthy 
transition from combat.
	Concerning the VA and the Vet Center, never in my career have I seen 
bureaucracies so flexible and accommodating. They provided thousands of hours 
of almost no-notice support. They didn't break any laws, but they definitely 
bent some local policies.
	About 10 percent of the soldiers returning were unemployed. Before 
we called them, the Department of Labor and Department of Employment Security 
reached out to us. They were already supporting us with our mob and our demob 
briefings, and now they added one-on-one counseling on our reentry line during 
that three days.
	The New Hampshire community outreach was limited to employees, I mean 
to employers. Internally, our ESGR program had an aggressive outreach 
statewide. Yet, with everything else we were doing, we didn't have the 
resources to do outreach beyond that. That's where Governor Lynch 
saw the gap, stepped in and established Operation Welcome Home. It was a 
cross departmental effort of state agencies. It included Department of 
Health and Human Services, Education, Corrections, Employment Security, 
Labor, Public Health and the Department of Safety. It was a 
statewide outreach to what they called, "natural helpers.'' Those in the 
community that people will naturally reach out for support, like primary 
care physicians, faith-based communities, school counselors, law enforcement, 
et cetera.
	The overall result of the New Hampshire National Guard Reunion & 
Reentry Program has far exceeded our expectations. Here are some highlights. 
100 percent who were enrolled in VA received dental assessment before their 
90 days so they wouldn't lose that benefit, had safe medical 
screening so that they were comfortable disclosing, made VA claims during 
the process, set up appointments for future physicals, were provided 
emergency care on the spot if needed, and they learned one on one about 
their VA benefits, plus much more.
	The mandatory counseling with the Vet Center, if this was the only 
result that we had we would still do this process. 5 percent of the folks 
who went through that counseling actually had acute mental health issues, 
and some needed to be placed on medications during that process. For 
our initial group that went through, that was 48 people.
	All went through the one-hour counseling, and of that 48 percent 
asked for follow-up support at that initial counseling. Units involved in 
the most frequent and severe combat had the highest rates of requests for 
follow-up care during that initial counseling, and Governor Lynch's 
Operation Welcome Home reached an estimated 10,000 "natural helpers.''
	I'm not saying that New Hampshire has found the magic pill, but we 
do believe in introducing services, breaking down barriers, and encouraging 
early support is important. The mandatory counseling through an organization 
like the Vet Center, which knows and understands veterans, is the most 
profound thing that we believe we are doing for reentry. It is about early 
support and not waiting 30 years like many Vietnam vets that have done so 
at great personal loss before reaching out.
	New Hampshire's program is all about partnerships. Just the three-day 
process for the initial 850 that came through took 300 people. Two-thirds of 
them were outside the New Hampshire National Guard. We definitely have some 
strong partners.
	The transitional support normally provided when leaving routine 
active duty is important to returning troops from combat, and yet it is 
important to remember, combat reentry requires other types of transitional 
support as well.
	Chairman, I thank you for the opportunity to share our story.
	[The statement of Colonel Carter appears on p. 64]

	Mr. Boozman. Thank you.
	Sergeant Major Rice.

STATEMENT OF SERGEANT MAJOR MICHAEL F. RICE

	Sgt. Maj. Rice. Mr. Chairman, Members of the Subcommittee, my name 
is Command Sergeant Major Michael Rice, and I'm the State Command Sergeant 
Major for the New Hampshire Army National Guard, and it is, indeed, an honor 
for me to be here today to discuss with you the New Hampshire National 
Guard's ""Reunion & Reentry'' from combat program. I will be addressing, 
primarily, the cultural aspects of the program and the third-day piece that 
Colonel Carter referenced.
	My involvement and my interest in this program, and my knowing that 
it was a necessary program, dates back to much, much earlier in my career, 
as I grew up during the Vietnam Era, and I saw the way Vietnam veterans 
were treated when they came home. I've had the opportunity to work with many 
Vietnam Vets who later joined the Guard, and to see some of the reactions 
that they had, and how the war had affected them.
	And so, when we sent over 800 soldiers off to combat in 
December/January, '03-'04, I knew at that time that we had to start looking 
at how we would do a better job when they came back than had been done during 
the Vietnam Era. We had to work to give them as many tools as possible to 
assist them in getting back into civilian life.
	Now, the two areas of greatest concern to me were Post Traumatic 
Stress Disorder, or PTSD, and the suicide issue, as these are not issues that 
the Reserve components normally deal with. We set out first to educate all 
of those that were involved, and this included the soldier, his or her 
family, and their employer.
	The soldiers themselves started to receive briefs while they were 
still in theatre. They again received information at the mobilization 
stations, as they process off active duty. But, we were also very well 
aware that their main interest at the mobilization station was to punch 
whatever ticket necessary and to get home to their families, and that they 
probably did not pay full attention to what was going on.
	During the out processing here in New Hampshire, each soldier that 
came through spent one day at the VA Hospital. We included many of the things 
that the Colonel just mentioned, but the biggest nugget in that whole process 
occurred when a soldier had an opportunity to meet one on one with a 
counselor for the Vet Center.  These meetings served as a way for soldiers 
to get information on issues that they might face, along with a point of 
contact that they could reach out to if needed. It also provided them with 
an outlet to express some of their feelings at that time and to set up 
follow-on appointments.
	I felt this piece to be so crucial that I personally briefed each 
group at their morning briefing about the importance of making sure that 
they took full advantage of that day's briefings. A piece of that was the 
medical, emphasized to them that no matter how small the incident may have 
been if it had not been documented this was their last opportunity to do 
that, and that this was not just for them, but it was also for their families.
	On the mental health side, I informed the soldiers that they would 
be meeting with representatives from the Vet Center. I acknowledged to them 
the fact that many, if not most, probably felt as though they were fine, they 
didn't have any issues, and they didn't really need to do that. But again, I 
told them if nothing else they would have a chance to meet person to person, 
eyeball to eyeball, identify a Vet Center representative, get his or her 
phone number, how they could contact him, so that if at some point in time 
down the road, whether it be a week from then, a month, or a year, that they 
woke some morning and realized that they were, in fact, having some 
problems, they did, in fact, need to talk to somebody, that it might not be 
having to go to a perfect stranger, that they would have already had some 
contact with our Vet Center.
	Another important piece to our soldiers was confidentiality. There 
was a lot of concern out there because that's kind of our culture, or it has 
been our culture, that if they were to go for counseling they might get 
thrown out of the guard, or if their full-time employer found out about it 
they might lose their job. And, I assured them that this process was 100 
percent confidential, that neither their leadership, nor the state 
leadership, would receive anything but statistical reports from 
the Vet Center. Those statistical reports you've already heard some on 
this morning. None of us know who those soldiers were or what the situations 
might be.
	I did, during this time, also remind them, or gave them a caveat, 
that if during the process they indicated that they might hurt themselves or 
hurt somebody else that by law those counselors would have to report that, 
but that would be given to the authorities and still not to us.
	I spoke with the soldiers about today's culture that has changed a 
little from years past, that the stigma once associated with a person who 
seeks counseling or put on some sort of anti-depressant is no longer the 
issue that it used to be. I mentioned to them that probably many of them 
sitting there had young children, who already in their young lives had been 
seen by a doctor for some sort of depressant type issue, may even be on some 
sort of medication. I further explained that even the military has eased 
their entrance requirements over the last few years. At one time, 
any history of counseling, mental health, depressants, would be an automatic 
disqualification when they try to get into the military, whereas today it's 
taken on a case-by-case basis, depending upon their current status, and how 
long that the person has dealt with a particular issue.
	We were very fortunate during this time of this redeployment that 
few other states in the area were either welcoming soldiers home at the time, 
or had such a program, as we were able to get counselors from the Vet Centers 
throughout New England to assist us in allowing the opportunity for each of 
our 800 plus soldiers to be able to be seen by a counselor for up to one hour 
if that was necessary.
	Since then, the small group of counselors that our Manchester Vet 
Center have definitely been tasked to the max, as well as those in White 
River Junction, Vermont, who have assisted many of our soldiers. One of the 
most difficult challenges we now face is in getting the counselors to the 
area of New Hampshire where there are none. If a soldier is on the fence 
trying to decide whether or not to ask for help, the proximity of a facility, 
or the availability of a counselor, could make the difference between him or 
her getting or not getting the help.
	I truly believe that what we have done for our soldiers is the right 
thing to do, and the least that we should be doing for all military personnel 
returning from military combat situations.  The sooner we get these tools and 
services to our soldiers the less time they, and their families, and 
employers, might spend suffering. We must all do what we can to make sure 
that no soldier, no warrior, is left behind. This is both a caring issue, 
and it is also a serious readiness issue.
	I would like to thank you all for your concern in this issue.
	[The statment of Major Rice appears on p. 70]

	Mr. Boozman. Thank all of you so much for your testimony. You know, 
there's just so many things that enter into a soldier that comes back that's 
unique to the Guard versus active duty. My Dad was in the military, and was 
a retired Master Sergeant after 20 years, and I just grew up expecting him 
to be gone, and yet, life went on, and then he came back, and yet he was 
still with his friends and things during the day, we still had our friends 
on the base. With the Guard, it's just a totally different deal, it's such 
a dislocation. 
	One of the things that's a real problem, certainly, is the financial 
aspect of it, and, if things aren't going well financially, whether you are 
in the military or not, certainly that's very hard on relationships, it's 
very, very hard on the family.
	Is there any time to insert a module that deals with, preparing 
businesses as you go out, I mean, how do you take the steps to prepare your 
business, your private life to insulate against the financial stuff as best 
you can? Are we doing anything along that line?
	Colonel Carter. We are not currently doing that. As we've been going 
through this process, though, what we've talked about is really the reentry, 
but it's been very clear to us that we need a full life cycle, and that there 
are some things on the front end that we need to address, and that 
would be one of those, the financial piece, maybe some marriage retreats at 
the beginning, instead of just at the end. So, I think that that would 
definitely be that case.
	We haven't looked at the business piece on the other end, but I 
think we really need to look at that as well.
	Sgt. Maj. Rice. I think a couple of things that we did do, though, to 
try to help a little bit, is we did have some financial consulting type work 
done at some of the family support meetings after the soldiers were deployed, 
to try and offer the family members some help.
	And then, the other service, again, we talk about the various 
partnerships we had with the community, is that the Certified Public 
Accountants Organization within the state, their association, stepped 
forward and agreed to do tax returns for the family members at no charge 
for anyone that was deployed, and that helped some of our folks out in that 
arena.
	General Young.  Mr. Chairman, my experience in Ohio, being Assistant 
Adjutant General there for about six years, is about the same. A lot of the 
financial type management discussions were conducted with the family support 
groups during the term of the deployment, where they would bring in some 
specialists.
	On the outgoing phase, during the deployment phase, the ESGR 
Committee, and a couple of the organizations, SCORE, a Service Corps Retired 
Executives, works with our small business owners as they go outbound and 
offer assistance and expertise in that arena. There's also a National 
Association of Small Business Development Centers, that is part of SBA that 
works with some of our small business owners. But, I've read the stories 
about some of our small business owners that have been deployed, and that 
have lost their businesses, so there is still quite a bit of work to do in 
this arena.
	Mr. Boozman. Very good.
	You mentioned the soldier to soldier contact, how important that 
was, and the things that you are trying to do in that regard, and yet, the 
problems, being a rural state, not having the ability to provide the support 
in the different areas.
	One of the things we found as we've gone out is the idea of the tele 
medicine type thing, where you've got a counselor that can counsel through 
tele medicine--being through video, and technology is so good these days, it 
is an inexpensive way to do those kind of things.
	Another thing, kind of chat rooms set up, where these individuals 
can talk to each other on a regular basis, through the internet and things 
like that. I think that we found that a very high percentage of the 
individuals in this group are internet accessible.
	Have we thought about any of those things or doing any of those 
things?
	Colonel Carter.  We are actually working the chat room piece. We 
have had some commanders that have had open armory nights, because soldiers 
will come into those and we expect to expand those.  
	We haven't thought about the tele conferencing piece, but we've 
just recently got some experience on the bridge capability that the Guard 
Bureau has, and it's a great opportunity to reach out to a lot of soldiers 
and have them be able to talk to each other once a week from their home.
	Sgt. Maj. Rice.  We did have a couple of the groups -- family groups 
during the deployment, that did have chat room types of things set up. Like 
anything like that, the advances in technology today were sometimes both a 
blessing and a curse, because it helps to fuel rumors and those types of 
things sometimes, and some of the chat groups sometimes got into some issues 
that, you know, needed to be kind of calmed down a little bit.
	But, it worked, for the most part it worked very, very well. The 
families were very pleased with it, and it did give them that avenue to a 
website to be able to communicate better.
	Mr. Boozman.  Very good.
	Thank you.
	Congressman Michaud?
	Mr. Michaud.  Thank you very much, Mr. Chairman.
	General Young, you had mentioned in your testimony that retention of 
Guard members following mobilization is a critical component for the overall 
strength and management, clearly making sure that they have services is 
going to be a key component to whether or not they are going to reenlist.
	Have you heard any concern among the Guard members who are not 
reenlisting because they feel they are not getting the services they need, 
and, hence, they are not going to reenlist, or that they are having pressure 
from their business that the business no longer can really afford to let 
them go off to do the service for their country?  I know in Maine, and 
elsewhere in the country, in the high 90 percentile of our businesses are 
small businesses, so, hence, there's a lot of pressure that will be put on 
the business as it relates to their employees.
	Have you heard any complaints or problems with that?
	General Young. Congressman, that's a very good question. Obviously, 
there's lots of reasons why our soldiers and airmen do not reenlist. Some of 
them are the frequency of deployments. Clearly, there's -- even though we 
have a USERRA law, and guarantees of reemployment, but there is that subtle 
pressure on employees in many ways to not reenlist, and I'm sure it's there. 
I'm sure you could find lots of soldiers that probably did not extend their 
enlistments because they felt like that even though there are guarantees for 
employment, and they should get the promotion opportunities just like they 
would have got if they were there back with the company, but they felt like 
that they did not get them and it was going to, perhaps, lower their 
expectations of future promotions and those types of things.
	And, there are family pressures, obviously, to not go and deploy 
again, or not -- getting to a point where we can have a predictability model, 
to where soldiers know that they are not going to have to return for at least 
an extended period of time, is vitally critically, and getting them and their 
families to understand that, that they will not have to.
	I've talked to many soldiers that have deployed a couple of 
different times in a federal status, ones in the theatre, or ones here in 
the Continental United States, just to do missions for Operation Noble Eagle, 
and even though they've done two deployments since 9/11, and their 
possibility of being called up is quite remote here for the near future, 
they still think that in another year or so they are going to be called again. 
And, it's just hard to convince soldiers and families that, in fact, they are 
not going to have to go for an extended period any time soon.
	Mr. Michaud.  Speaking of families, which are very important and we 
focus a lot on men and women who serve in the military, what are the Guard 
and Reserves doing? Do you encourage in the program here in New Hampshire, 
do you encourage the spouses to really participate in every meeting that you 
have with the service men and women?
	Sgt. Maj. Rice. Absolutely. And, we have our family support program, 
depending upon the unit deployed, was set up in a number of different ways, 
but we definitely encourage them to attend meetings. There were monthly 
meetings, and we had armories open for a period of time trying to keep 
armories open one night a week to see if we could get families to come in.
	The goal was to get a phone call from either a lead volunteer or 
we've got some contractors, from the contractors to each family member at 
least once a month, check in on them, see how they are doing, you know, 
whether they were attending meetings or not we were trying to do that.
	There were newsletters going out from each family support group. 
We tried to communicate with them as much as we could in all those venues, 
encouraging them to come into the meetings and get to be able to speak and 
talk to other family members that are going through the same thing 
they were and to get information that may be out there that would help them.
	Mr. Michaud. And, how has that encouragement been? Have you seen a 
large participation from spousal members?
	Sgt. Maj. Rice. No where near what I would like to see, sir. I think 
if you get, you know, a third to a real good meeting once in a while, if you 
got 50 percent that showed up you were doing well.
	General Young.  Sir, could I say something about that. One of the 
-- my experience has been that with any mobilization for the first three or 
four months the participation is much higher, and it kind of wanes off as you 
go through the mobilization, and then as you get closer to the end of 
the mobilization attendance will pick back up, wanting to know the real 
facts and when folks are coming home, when they are redeploying back to the 
demob station.
	One of the strongest family support groups, and the strongest 
family support group meetings, are those when the commander in theatre, or 
the senior NCO in theatre can do a teleconference back at that meeting, you 
will have great participation from family members wanting to ask questions 
during the teleconference.
	I've been to several of those, and just to be able to get the facts 
as they are from on the ground, from in theatre, from those people in a 
teleconference really adds great benefit to those meetings, and helps relay 
-- relieve a lot of the fears going on back home from the rumors and 
everything.
	Mr. Michaud. Great.
	My last couple of questions are, and I've heard a lot about what you 
are doing here in New Hampshire, and I'm very appreciative of all the hard 
work, and reading some of the comments from Colonel Carter, as far as you are 
getting full-time people, and really getting other people involved, 
healthcare providers, I think is great.
	My question is, when you look at, for instance, I'll use the State 
of Maine for example, you can fit all of New England into the State of Maine. 
If you look at the clinics and the Togus Hospital that we have in Maine, we 
had the same number in New Hampshire. So, clearly, Maine is a rural state.
	How do you make sure that the men and women in the Guard and 
Reserve, not only can get that quality assistance they need, but the access 
issue, which I think is extremely important -- it's good to have programs 
available -- but if you do not have access to it, it definitely is a concern.
	What would you suggest, or how can we improve the availability of 
the services in a rural state such as Maine, to have a comparable program 
as you do down here in New Hampshire?
	Colonel Carter. We had many soldiers that were not from New 
Hampshire when they came back on the reentry, and so to keep them there for 
the three days, some were actually out of state, we had them in hotels and 
their families stayed with them. So, we did have challenges there.
	We are a small state, and so the VA Center that we have, or the VA 
Medical Hospital that we have, is pretty centrally located, and, you know, 
I think we really need to tweeze out what are those services that are 
critical that we need to have access to. And, I know, for example, in Maine 
you have five Vet Centers and they are pretty well distributed throughout.
	We have less concern about our soldiers traveling two hours down to 
a medical facility to get them dental care than we do about them if they 
are, you know, going through some dark hours and need to get some 
counseling. So, we are more concerned with those, but I do think we need to 
tweeze those out and see where we need to provide those services, because, 
you know, a few issues could be taken care of if we need to, the right 
services, and the barriers, like what the Command Sergeant Major did, I 
think it has a lot to do with the response that we had from the soldiers, and 
actually seeking out support.
	Sgt. Maj. Rice. The other thing I would add, sir, is the importance 
of getting, as I mentioned in my piece, more Vet Centers or satellite stations 
out there is extremely important. Yes, the soldiers will travel, but it comes 
back to, a little bit of it comes back to what we've also talked 
about with the issues with employers. If it was just them and they had to 
travel two hours to go for an hour counseling, they might do it, but in many 
cases if they've got to go that far it's going to mean taking additional time 
off from their jobs, where they are already possibly being given, you 
know, some grief because of the fact they've been gone for a year and a 
half. So, there's a number of reasons why if we can get more centers or 
satellite centers out there that we can better service our service members.
	Mr. Michaud. My last question, if I might, Mr. Chairman, in the 
testimony you talked about when the soldier comes home he has a very 
aggressive time frame, you know, three days they've got to go through, two 
days, three days, and they've got to go through this process, it's very 
intensive at the beginning.
	After the initial month or two months have gone by, are the people 
who need the services able to get access, you know, the Vet Clinics in a 
timely manner so they can get in there and get what they need? 
	And, my second question is, as the Chairman had mentioned earlier, 
we are getting more into telemedicine, which is great, and in some cases it 
will be fantastic, but do you think telemedicine is going to be effective if 
someone has some mental illness or PTSD that they are going to be willing to 
do it looking at a TV screen? Is that really an effective way to treat our men 
and women?
	Colonel Carter. I think it's probably unlikely that soldiers will 
reach out with the tele medicine for the counseling if they are really 
struggling, but I guess time will tell on that.
	What we found with the Vet Center is that soldiers are surprised that 
they are not in white coats, and that they, you know, go to a home, and it's a 
very comfortable, friendly environment, and so it's more welcoming. And, they 
are accessing, but we are maxing them out as the Command Sergeant Major said.
	It appears to me that the Vet Center and the VA are based on a 
passive funding model, and when you have the military start to proactively 
bring you the market, the VA and the Vet Centers are not going to be able to 
support those.
	I know we've pretty much maxed out the dental clinics for the VA, and 
we are not even sure that our 800 folks will get what they are supposed to get 
done in the next two years, as much as they are trying to do that at the VA. 
But, we really need to look at those funding models.
	Mr. Michaud. Thank you.
	Thank you very much, Mr. Chairman.
	Mr. Boozman. Congressman Bradley.
	Mr. Bradley. Thank you very much, Mr. Chairman.
	I just have one question of Major General Young.
	By all accounts, what the folks here in New Hampshire are doing is 
a model effort. How transferrable are some of the lessons learned here to 
other Guard and Reserve units around the country, and should that happen, 
and what can you take away from this, and what can we take away 
from that?
	General Young. Sir, this program is very transferrable around the 
whole country, and as a matter of fact, I was talking to Colonel Carter here 
earlier, I talk about their program at all my conferences, and I use it as 
the model for the country.
	And, as I talk to the other personnel officers in each of the states, 
I tell them that if you really want a model that works and does a great job 
you need to talk to Colonel Carter and the folks in New Hampshire.
	There are some other programs out there, and each Adjutant General 
in each state is going to do their program just a little bit different, but 
this model of bringing back the soldiers to the state, and doing this TAP 
process at the home station with all the local agencies, the local employment 
agencies, the local Veteran service organizations, having all those folks 
involved in a process, and prepping it before they get home by working with 
the families while the soldiers are still in theatre, or at the 
demobilization station, so that when they get home the spouse says, we are 
going to those days of -- those three or four extra days, I think is of 
great benefit.
	And, I know she has received a lot of phone calls from across the 
country, wanting to come and talk about their program, wanting her to come 
and talk at some of their different states. And, our states accept other 
great ideas, and I think this New Hampshire model is a great idea.
	Mr. Bradley. Thank you. 
	Mr. Boozman. I want to thank the panel so much for being here, 
especially General Young for traveling, I think this really shows the 
commitment of the Guard to this very, very important problem, and that we 
are not doing enough, but we are doing more than we ever have before, and 
looking for ways to do even more, and that's why the Committee is here. I 
know that's why General Young is here. It's not as if the Guard doesn't have 
a lot going on at this time with Katrina and Iraq and everything else, so 
again, I think it really does say a lot that somebody in your position 
is here to contribute and then also learn more of what's going on.
	Again, thank you all so much. As the General said, you all truly 
have a national reputation for trying to get this thing as right as it can 
be. So, we do appreciate you all.
	Thank you very much.
	General Young. Mr. Chairman, just one thing before I leave, the Chief 
of the National Guard Bureau, Lieutenant General Blum, sincerely would have 
liked to have been here today, but as you know with the Katrina response and 
everything that's going on, he just could not be here.
	Mr. Boozman. Well, tell him we'd rather have you anyway.
	General Young. He sincerely thanks you for holding this meeting, and 
we will look forward to working with the Committee to improve this process.
	Mr. Boozman. Well, thank you, sir. We appreciate it.
	Mr. Boozman. Our second panel is composed of members of the Guard 
who are on the front lines when the Guard is activated, and we really 
appreciate you being with us today.
	We have Captain Erik Fessenden, Commander of the 1st Battalion, 
102nd Field Artillery, New Hampshire National Guard; Captain Mary Hennessy, 
Commander of the 744th Transportation Company, New Hampshire National Guard; 
and Staff Sergeant Mark Bright, of the 12th Civil Support Team, New Hampshire 
National Guard.
	Captain Fessenden, would you lead off for us?


STATEMENT OF CAPTAIN ERIK FESSENDEN, BATTALION COMMANDER, OPERATION IRAQI 
FREEDOM, NEW HAMPSHIRE NATIONAL GUARD; ACCOMPANIED BY CAPTAIN MARY HENNESSY, 
COMPANY COMMANDER, OPERATION IRAQI FREEDOM, NEW HAMPSHIRE NATIONAL GUARD; 
STAFF SERGEANT MARK BRIGHT, CIVIL SUPPORT TEAM, NEW HAMPSHIRE NATIONAL GUARD; 
AND STAFF SERGEANT ROBERT SHEA, COMPANY TRAINING NONCOMMISSIONED OFFICER, 
NEW HAMPSHIRE NATIONAL GUARD

STATEMENT OF CAPTAIN ERIK FESSENDEN

	Capt. Fessenden. Yes, sir, good morning.
	Thank you, gentlemen, for the opportunity to talk to you about the 
New Hampshire's Reunion Program. What I'd like to do is just give you a quick 
summary, I think, of my written testimony that I provided. Two main points, 
really, that I would like to discuss.
	The first point is that, and it was in my testimony, I think whenever 
you introduce a program like this there is initial skepticism, especially 
among the soldiers that are over there on the ground. I know when I first 
heard about this program I was very skeptical, for a number of reasons, 
but I believed that it was very repetitive, that we were, basically, going 
through some of the same type of programs that we were doing in both Iraq and 
Kuwait, and then through the mobilization site. And, I think that it was an 
extra few days away from our families and would hurt both morale 
of the soldiers and hurt our retention efforts back here in the States.
	I luckily was completely wrong about that, and what I found out when 
I got here was that this was a program that was completely needed, for a 
number of reasons. One was that the briefings and demobilization process that 
we received from Iraq and from the demob site probably wasn't as -- it wasn't 
sufficient, it wasn't what I thought my soldiers needed to prepare them to 
reenter civilian life. People trying to do the right thing, but it's a big 
process, especially at the demob site, a lot of soldiers going through there. 
So, I felt like there were issues that weren't addressed until we arrived 
back in New Hampshire, and I was completely surprised also with the number 
of emotional issues that soldiers brought back.
	There were some people who I thought right from the beginning 
would need this sort of counseling when they returned, and then there were 
other people who I never would have guessed it as a Commander, and I commend 
them for getting that.
	If they had asked me as a Commander, identify the people who you think 
need issues, it's an inefficient way of doing it, and actually, that's the 
first step back in Iraq, they asked me as the Commander, you know, please give 
us a list of the soldiers that you think need counseling. As a Commander, 
nobody ever tells the Commander that they need counseling.  So, you ask how 
are you doing and everybody tells you I'm doing fine, I don't have an issue, 
and soldiers generally see that as a weakness, especially when they are still 
in that environment, in the combat environment.
	What this program provided, especially for the emotional issues, was 
an opportunity to pull them out of that environment and to ask them one on one 
away from their peers what are truly your issues, and a lot of them starting 
sprouting up.
	So, I think my first point then is that this is an extremely valuable 
program, that no matter what state your roll it out to there will be some 
initial skepticism, but the state that rolled this program out, if they stay 
committed to it, it will be successful.
	The second issue, which is really -- it's very much related to that, 
is just as a Commander I think we owe it to these soldiers who have gone and 
given so much to their country, we owe them this to give them really, really, 
a small piece to try to address some of the issues that they have.
	The combat or the deployment environment doesn't end when you get 
on the plane in Kuwait, and that's what you find out. You come back and some 
of the same thoughts go through your mind, that brotherhood, that closeness, 
is still there.
	As you spoke about with the previous panel, what's difficult is that 
all of a sudden now you get in your cars and go home, and you take your 
uniform off and everybody separates, and, you know, for the first few days 
all you are thinking about is, you know, what are my platoon sergeants 
doing right now, where are my platoon leaders, are they okay?  And, at the 
same time, you are trying to get reintroduced, you know, to your families 
and your friends, and it becomes a very difficult process.
	So, I think it's just extremely critical that we provide our 
soldiers these avenues, both for their sake, and for their employers, and 
their families, and their friends that have also given up so much. You know, 
my wife and my kids sent out a somewhat normal person to go off to combat, 
and so they should get a somewhat normal person back, I guess, and the same 
with the employers. They have sent -- they have given up the employees for 
a year and a half, and they should get someone back who is able to handle 
the environment they've been put through.
	So, I just think we owe it as a country, we put these soldiers in the 
difficult environment, and we need to do what we can to ensure that they 
remain productive members of society.
	But, thank you for the opportunity, and I look forward to your 
questions.
	[The statement of Captain Fessenden appears on p. 74]

	Mr. Boozman. Captain Hennessy?

STATEMENT OF CAPTAIN MARY HENNESSY

	Capt. Hennessy. Good afternoon, Chairman Boozman, and Members of the 
Committee, distinguished ladies and gentlemen, my name is Captain Mary 
Hennessy. I guess I'm a little bit from a different spectrum as Captain 
Fessenden, I'm the over-worrisome commander, and there couldn't be enough 
mental health issues or dealing with to give the soldiers, as far as I'm 
concerned.
	I experienced the same thing, just to summarize my testimony a 
little bit, we were a transportation company, and, yes, we were a typical 
transportation company that you heard about or you continuously saw on the 
news, getting shot at, blown up, unfortunately, we also lost a soldier. So, 
we had a lot going on on a continued basis, as others that needed continuous 
care in country, just as well coming back.
	Needless to say, the bottom line was, it was a pretty quick 
recognition, and I think Colonel Carter recognized that from getting a couple 
e-mails back here in the States from me, that we weren't the same, and we 
weren't going to be the same after being in these conditions for an 
extended period of time.
	I, unfortunately, came back a little bit earlier, I was ten months 
in country, I got diagnosed with cancer and I had to return a little bit 
earlier, hardest thing in my life, so I can speak personally from needing 
counseling myself, you know, because of not only dealing with that, but 
also dealing with the way that I came back.
	When I came back, my focus, after I realized that my second in 
charge had it well under control, along with the NCOs in my company, and I 
could stop playing couch commander, I put all my focus on, okay, how are we 
going to welcome them back home, and how are we going to deal with this.
	And, right away, I'm rattling off a list back to the state, we need 
to do this, we need to that, we need to this, we need to that, and my contact 
is one of the main organizers back in the States, and I said, hey, here are 
my thoughts and what we need to do. And, she was like, you know, she 
told me, relax, relax, Captain Bergner, at the time, we've got it under 
control, and I was like, yeah, sure you do. Okay. How can you understand 
what we are going through or what we need?  You know, you kind of get that 
mentality after a while of being in country.
	And, she sent me the three block schedule, and I was pleasantly 
pleased. I was actually overwhelmed with just pride of being a Guardsman at 
that time, being from the State of New Hampshire, and just overwhelmed with 
the recognition of how much they realized that our lives were different and 
that we were going to need help once we got back to the States.
	The program was outstanding. There was a numerous amount of things 
I referred to a lot in my written testimony, but there was a lot of things 
that I didn't hit on, to include, you know, ESGR, which did an exceptional 
job with our employers, recognizing them. You know, you asked earlier if 
they were helping financially, they help financially, and they help show 
and showcase the employers that we did have back here who did extra benefits 
for employers, or made up price differences, or salary differences, they gave 
them special recognition so the rest of New Hampshire, you know, maybe the 
employers who weren't doing that kind of stood up to be recognized of, well, 
maybe we could do something better for our employers. So, that was a huge 
piece.
	Reentry was just wonderful, having the HR there, you know, from a 
full-time perspective, letting me know about my own full-time employment, my 
soldiers' full-time employment, and because we had a lot of soldiers coming 
back that either didn't want to go back to where they came from, where they 
were working from, because they had changed so much, or lost, you know, their 
job, which ESGR also helps with that, or they had a feeling they were going 
to lose their job. Whether all the legal things are in place or not, we 
realize that still happens, and they can legally do it. They were there to 
inform people of full-time opportunities within the National Guard, and a lot 
of soldiers took a serious look at that, and we've brought on a lot of 
soldiers that, you know, came back because they were so encouraged by the 
New Hampshire National Guard.
	Also the State Police, they made a huge difference for us, because 
we were truck drivers, and we definitely drove a little bit different in 
country than you are supposed to drive back here. Some of us are still doing 
it, but the kind State Police, you know, will remind us that that's not the 
way to do it, and they also informed my soldiers, which made a huge impact, 
on the difference in laws, and being from a Commander's perspective, looking 
at my soldiers, I knew alcohol was more than likely going to be a huge 
equation, or could be a huge equation, if some of the soldiers, especially 
the younger soldiers, I've experienced the older ones really reach out and 
accept this, but it's a little bit harder to reach the younger ones. So, 
it's so important that it's there, but they let them know, okay, the cause 
and effects, that they began to realize over in Iraq, in other words, if 
you don't do your proper planning ahead of time you could get killed, and 
they kind of sent that message to our soldiers back here, that, hey, these 
are now the DWI laws, and they did a great job in New Hampshire, you know, 
enforcing those and making those stricter while we were gone, and letting 
them know what they were, and I know it woke up a few of my soldiers. You 
know, and I'm sure when they thought about that, if they'd had a few drinks. 
So, that made a huge difference for us.
	Also, just to share with you the main thing that like it's our 
major head on, with the Vet Center and the VA, that day was wonderful. The 
way that we were accepted everywhere first off was just amazing, but the 
Vet Center really made a difference because 100 percent of my soldiers 
did have to go through the counseling, or at least talk to the counselor, 
and I think that if they had the choice to do that, raise their hands, you 
know, they wouldn't have wanted to necessarily be picked out of the crowd. 
Some of them would, though, I'm the type that everybody told me everything, 
a little bit too much sometimes, so I heard a lot of concerns once they came 
off the plane and when I was at the demob station with them, a lot of -- a 
lot of issues, a lot of family issues, a lot of employer issues, a lot of 
transitional issues, that they were really looking at me during the demob 
process like, ma'am, this isn't giving us anything, how does this apply to us? 
And, I kept telling them, relax, you know, once you get to the States you 
are going to get face-to-face with the people who can make a difference in 
the state and all the partnerships that really has joined the National Guard 
while we were gone, are going to help provide services to you, and they 
kind of did the same thing, okay, ma'am. You know, okay.
	So, they were pleasantly pleased to see, once we got back, all the 
partnerships from the fellow state organizations and faces of people who 
could help us in the state, that really made a difference.
	Me, personally, you know, definitely changed by the experience. Do 
I know the depth of how I'm changed by the experience yet? Not completely. 
Am I very relieved that we have such a program in place and we possibly will 
grow our Vet Centers, make more counselors available, so that they can help 
me understand those depths of how much I changed? Very thankful for that, and 
I think you'll find a lot of soldiers now don't quite realize it until six 
months, you know, even a year, and a lot of my soldiers that I've talked to 
that were first coming off, oh, we are fine, we are fine, now are coming to 
me and saying, hey, this is going on with my family, this is going on with 
my employer, this is going on with my friends, and I just can't quite figure 
it out, and they do reference those three days that we had. They may not 
remember much from those three days, because they were ready to get back to 
their family, but they do remember that they were cared for, and they do 
remember somewhere there are resources out there to help us, and now we are 
starting to see them reach out for it.
	Just one last note, the difference between Vet Center and 
professional therapists from outside, I think it's important when we kind 
of get our arms around this, and it seems like, you know, especially by so 
many important people being here, that this subject is being looked at and 
addressed, that it not to go off necessarily to a civilian professional 
counselors, because I tried that route, I tried seeing professionals, you 
know, therapists from outside of, you know, somebody who knows you, and it's 
hard for them to even get a grasp of what you've been through. It's hard for 
them to understand you, let alone for them to help you understand you, and 
that's something that the Vet Center and the counselors that have actually 
been through, you know, war deployment, have been through a situation like 
this, can really, really hit home on, and I thank all of the Vet 
Center counselors, all the state partnerships, and organizations. I know 
you've truly made a difference, you know, with us coming back, not only me, 
but my soldiers.
	So, thank you, and thank you for being here and allowing them this 
opportunity, and I look forward to your questions.
	[The statement of Captain Hennessy appears on p. 78]

	Mr. Boozman. Thank you.
	Sergeant Bright.

STATEMENT OF STAFF SERGEANT MARK BRIGHT

	Sgt. Bright. Good morning, Chairman Boozman, Congressman Bradley, 
Congressman Michaud, distinguished guests. My name is Staff Sergeant Mark 
Bright.  I served for Captain Fessenden for 14 months as an MP squad leader 
in Iraq.
	I'm here today to speak of, I've been deployed several times in my 
career, and just to speak of the differences between this return compared 
to my other ones.
	My first deployment was to Desert Shield/Desert Storm.  Upon my 
return from Desert Shield/Desert Storm, after being in the country for nine 
months of combat conditions, we arrived on an aircraft, disembarked the 
aircraft, had a small ceremony, and we were sent home. That was the end of it.
	Shortly after that, I watched too many of my peers that were expected 
just to integrate back into their families and the like, different day-to-day 
situations, they weren't -- it wasn't happening. They would jump at loud 
noises, they would hear fireworks and jump underneath tables. They were 
fighting with their families. Their families had dissolved while they were 
gone, there were new babies. They had just no idea had to cope with these 
things, and there was very little in place.
	There was counseling if you would step up and you would go to it, 
but at that time it held a stigmatism that you could be kicked out of the 
military if that was there.
	My second appointment was not too long after that into the Sinai 
Desert. Upon the return of that one, it was a little different, there was 
some counseling, but it seemed to fall more towards the basic counseling 
that we're all given yearly, op sec briefing, SIERRA, things such as that,
very little on reintroducing you to your family and to your normal life.
	When we were coming home from Iraq this last deployment, we had some 
counseling, very basic stuff, start in country, kind of, what kind of 
problems are you having, basic medical screening such as that, and we told 
everything else we picked up at the mob station.
	Most of my soldiers and the squad leader, I listened to them, have 
quims and quams about it, they just wanted to get back and get to their 
families. I, myself, was afraid it was going to be very repetitive, and was 
kind of concerned at what I was being -- having the -- that I've had before.
	When we got to Dix, Ft. Dix, it was better than I expected it to be, 
but there were a lot of loopholes. You watched them bringing in civilian 
contractors that weren't quite sure of their jobs yet, taking over military 
operations, a lot of things were falling through the cracks. And, it's the 
small things in my career that I found that really come back to bite you in 
the long run.
	I, myself, while at Ft. Dix, not knowing it, was removed from the 
Dear system. My families benefits for insurance were cut off. I'm an AGR, 
I'm a full-time soldier, my pay was shut off. These were things as I left 
this mob station I wasn't aware of.
	When we arrived in New Hampshire, we heard about the three-day 
program, again, my soldiers were -- we just did this, we want to go home. 
The program was incredible. We had representatives there from the SGR, from 
the Veterans Administration, from economic sources to help them find jobs, 
places to live. There were pay stations to go through where they caught my 
problem, it was a very quick, easy problem, they caught it before there was 
anything. The counseling from the VA, it's about the most relaxing I could 
have ever seen in my life. You are talking to soldiers most of the time, you 
are talking to vets or people that have worked with veterans enough that they 
know -- you are not just talking to a face that can't understand, they do 
understand.
	I have soldiers of my own that are still going to this counseling, 
that are still part of this today, and this has been seven months since 
we've returned home. I can't say enough about the program. They were there, 
they supported us, they picked up and they tightened up all these holes 
that were in the system. I think it's vital that the states implement this, 
even if the soldier is protesting they don't want to do it, to have this 
counseling go on, and have it continue. I mean, to this day the program is 
still in effect. They welcomed us, they took care of our families while we 
were gone. They had our families go to counseling and offered them, and tell 
our families what we were going through, so our spouses could understand 
that, on this day we'll be talking to the chaplains, and these things will 
be discussed, and they had a good idea of what we were going through.
	I'd like to thank the Committee for the opportunity to speak 
today, and I'm looking forward to answering any questions that you may have.
	Thank you.
	[The statement of Staff Sergeant Bright appears on p. 83]

	Mr. Boozman.  Thank you very much.
	It sounds like you all are very appreciative as it was going on, but 
you've been gone a long time. I went over to Iraq, we had much of our state 
activated, the 39th Brigade, they were gone, and in the same manner you all 
were, and I went over to Ft. Hood when they came back in, and had this 
little ceremony, it was very nice, but you had many of these folks that had 
not seen children that were born while they were away and things like that, 
anxious to return back to normal life. So, there's the pressure of getting 
back as quickly as possible, and yet the military pressure of, hey, you 
know, we need to go through these steps to ensure that you can get back like 
you want to.
	I guess with all that said, you all have a wonderful program, and 
it's maybe the best in the country. From your perspective, though, are there 
areas that we need to spend, as you go through are there areas that you need 
to spend more time, other areas that, perhaps, you need to emphasize 
less? I guess I'd like your comments concerning things like that.
	Capt. Fessenden. Yes, sir. 
	From my opinion, personally, I think when you look at the entire 
demobilization process, which means both the demobilization site, we went 
through Ft. Dix, and here, my personal opinion is that many of the 
administrative tasks could have been done here. If they were done here, they 
were done better, they corrected many of the errors that had been created at 
the demob site. So, I would almost prefer that those days be taken out of the 
demob site. I spent five days at Ft. Dix, and it was just a very long, 
crowded, a lot of soldiers going through. People there tried to do the right 
thing, but there were too many people going through to give people the 
personal attention that they needed.
	So, I would prefer that those administrative days are taken out and 
done here in the state with the people that know us, who in the end corrected 
many of the issues, and then I would turn around and with the days that we 
could save I would dedicate more time to that third day that we 
talked about, I think the Sergeant Major talked about it, because what you 
see, and I know Colonel Carter and myself have spoken about this, it takes a 
couple hours in the morning to get -- to break that ice, soldiers come in 
initially and say, you know, what the heck is this, people talking about 
suicide prevention and this other stuff, all this touchy-feely stuff, you 
know, and it takes a while to break the ice.
	So, I would almost like to see that time expanded, and if you could 
do two or three days of that, because you can fill that time, and the soldiers 
will talk. So, I would personally like to see that, and I think some of the 
redundant areas, such as the administrative, finance, that sort of thing, that 
we went through at Ft. Dix, could be done one time, and it would be done right 
at the state.
	Capt. Hennessy. I would concur with definitely the third day. A lot 
of issues got brought up, a lot of heated issues. It got a lot of, you know, 
emotions flowing, and it was kind of like, okay, now we have to be done.
	Not only that, but on the third day if we could extend that for two 
to three days, also having more of the Vet Center counselors on, you know, 
standby in that, you know, piece, what the soldiers call touchy-feely piece 
of the reentry program.
	In addition to that, what I would like to see, and I know we are 
working on it, is also follow-up continuum from that, so at the six-month 
mark, at the year mark, we are doing the same thing maybe for two to three 
days, we are bringing them back into like a block, what ours was called, the 
Block C, that touchy-feely piece, because like I said, a lot of soldiers are 
just starting to now realize that.
	Another thing, you talked about tele meds or something like that, 
through teleconference and video, but I would love to see a video that could 
be put in place for the families, and maybe also for the employers, maybe 
two separate ones, because I know I didn't make it a big issue of bringing 
my whole entire family with me to the Block C, and now I wish I did, because 
to show them something, to show them that, yes, I'm changed, but it's not 
exactly abnormal.  You know, this is going to be part of the process, and 
to have somebody giving that to them, and I'd love to pop in a tape right now 
and sit my in-laws, especially, down and say, okay, this is part of what's 
going on. You know, God bless them, but it's hard for them to not see the 
same Mary that they saw when I left, and I think the soldiers have expressed 
a lot of the same thing, and those are the main two pieces.
	 Sgt. Bright. I'd have to concur with what they said. I think one 
of the big parts is keeping the families involved with it, so they actually 
understand what's going on, and let the families know, they've done a great 
job of letting us know that because we are acting in a certain way doesn't 
necessarily mean that it's against them, it's just going to take us some 
time to adjust, just like it's taken them time to adjust to us.
	Mr. Boozman. Congressman Michaud.
	Mr. Michaud. Thank you very much, Mr. Chairman.
	First of all, I want to thank each of you for your service to this 
country, really appreciate your service, as well as your family, to know 
that they are there, they give you their love, and I know at times it's not 
easy. So, I want to thank each and every one of you, and also everyone who 
serves in the military.
	Just a couple of questions. Captain Hennessy, you had mentioned that 
100 percent -- I think you said 100 percent of your soldiers went to 
counseling at the Vet Center, a couple of questions relating to that.
	Number one, how far of a distance did they have to travel to get to 
the Vet Center, but also, not only at the beginning, but near the end, it's 
been a year since they left Iraq or Afghanistan, how has the waiting time 
been for them to get the services they need?
	Capt. Hennessy. I apologize if I miscommunicated.  What I meant in 
the 100 percent is, in part of our process, like the Command Sergeant Major 
was covering, they had to sit down with a counselor.
	Mr. Michaud. Okay.
	Capt. Hennessy. So, I apologize, 100 percent of them went through 
sitting down with a counselor, and that counselor, you know, basically asking 
them, you know, how are you doing, they took care of some immediate needs 
that needed it, and then also asked them for a follow-up call.
	And, I can say, hearing from the soldiers who asked for that 
follow-up call, myself included, the Vet Centers have done a great job 
providing those follow-up calls and making sure the soldiers are contacted, 
and I hope they continue that because now is the part where they are 
starting to recognize, and I guarantee if they call today they are going 
to have somebody that's -- they are going to get more, yes, I'll be in, I'm 
ready now.
	And, I'm sorry, what was the second part?
	Mr. Michaud. As far as the distance, it sounds to me from what I've 
heard from the first panel, and from each of you, is that when they go for 
counseling, what have you, they are pleased with what they receive.
	My second question is, how far do they have to travel in order to 
get that counseling, and do you think an individual, particularly, if 
someone has PTSD, or needs some assistance and they have 
to travel three or four hours, do you think that they would do that?
	Capt. Hennessy. Right. Some of them, you know, definitely have quite 
far to travel, because I have three different detachments, Claremont, 
Hillsboro and Summersworth, so we are kind of spread across the state, and 
living in the different areas where soldiers are.
	So, some of them quite far, especially if they are in the north 
country, there's not a lot of accessibility except for possibly going up to 
Vermont and using that center, and I know that center is used.
	As far as the time, like one of the panel members before pointed 
out, it's hard, you know, on the employers, and I think a lot of them are 
just trying to get back into the groove, and it's hard to ask for time, you 
know, to say, especially if somebody is having a hard time accepting 
counseling or admitting they are accepting counseling, to go to their 
employers and ask to, hey, I've got a VA counseling appointment, can I have 
three, four hours off work. I think if they were closer, if there was more 
satellite services, we'd see a much higher rate of return.
	Mr. Michaud. Now, when you say -- I hate to pinpoint, but when you 
say quite far, how far is quite far? And, the reason why I ask that, because 
I know when I was in the Maine Legislature, legislators from Portland had to 
travel 30 miles, that was quite a distance for them, yet, for those of 
us in the northern territory we'd be driving three hours, it's really nothing.
	Capt. Hennessy. Right.
	Mr. Michaud. So, I was wondering what -- 
	Capt. Hennessy. I would say about two hours on average, two and a 
half hours, and that doesn't seem like far, but whenever you are dealing 
with families, you know how that goes, it takes twice as much. So, two hours 
feels like four or five.
	But, yeah, I apologize for not making that clear.
	Mr. Michaud. No problem. Thank you.
	Capt. Fessenden. One comment, sir, about that, is just what you'll 
find is that the people who need the help, though, are not -- they are not 
going to drive, and they are not going to call and make an appointment. 
What's going to happen, in fact, Sergeant Major Rice, we just had this 
experience two months ago, when out of the blue he called me, very involved 
with soldier issues, and said one of your soldiers is basically -- basically 
had a break down, and I think it was the girlfriend's mother who called and 
said, I'm concerned, I'm concerned whether he's going to get violent, and 
she's the one who called the Sergeant Major, who then called us, and I 
actually had Sergeant Bright call this soldier and spoke with him, and he 
got off the phone and said, yeah, this guy needs help, he's breaking down 
on the phone.
	And then, it's great to have this resource then that we can turn it 
over to the Vet Center and say, help us. We are not the experts, help us, and 
they say great, give it to us and we'll run with it.
	So, my point is, is that these Vet Centers work, and like a lot of 
things, it probably comes down to money and dollars, but they work, we need 
more of them, they have to be close and in the communities with the soldiers, 
because the soldiers who have issues will not raise their hand, you 
have to reach out into the communities and pull them out of their bedrooms 
and out of their houses, it's a pull system, rather than a push.
	Mr. Michaud. Do you think some of your soldiers who need help, 
because of PTSD, mental health issues, that telemedicine will be sufficient, 
or do you think that they'll need that one-on-one, face-to-face?
	Capt. Fessenden. Well, right, for mental health issues, it needs to 
be one on one, and it needs to start with the people that know them. The 
Sergeant Major called me, and I grabbed his Squad Leader, Sergeant Bright, 
who knows him. He called him and said, and at first he gets the 
typical, ""I'm fine, there's not a problem, I'm doing great,'' and Sergeant 
Bright says, cut it out, and they start talking about shared situations, and 
the guy broke right down. That's how you do it.
	And so, you need to find the people in the community who know these 
people, and what you'll get from these Vet Centers, and, you know, if I'm 
pumping up the Vet Centers that's good, because that's what needs to happen, 
is that these Vet Centers are not just these guys sitting in an 
office, these Vet Centers, Sergeant Bright and I went on a motorcycle ride 
up to Laconia during Bike Week, the Vet Center put that on, and we had a 
group of, what, about 30, 40 of us on motorcycles. 
	Iraqi veterans wore the BDU bottoms, with tee shirts, and rode up 
to Laconia Bike Week. These guys, they took a group during the Boston Marathon 
and backpacked it, and it was just a point of bringing veterans together, who 
can share experiences, because no matter how much I talk, you know, to my 
wife, she doesn't understand that, and their spouses don't understand that. 
Sergeant Bright knows what went on over there, and they don't.
	So, these Vet Centers work, obviously, they need to be funded, 
but they work.
	Sgt. Bright. Sir, if I might add one thing to it.
	And, Sergeant Major Rice has done this, as military leaders it's 
our responsibility to when these soldiers do reach out for help, the states 
put it into place, but we have the resources, we have the tools.
	And, you are asking about how do they get to these places, how do 
we get them there, it's our duty and responsibility as non-commissioned 
officers and officers to make sure that we get them the means to get there. 
There is not a soldier in the New Hampshire National Guard, if they 
needed a ride to get to counseling, that there wouldn't be somebody in the 
system somewhere to help them. 
	So, as long as we keep those doors open, and hold up our 
responsibilities, and we know that there's problems, we can get them there.
	Mr. Michaud. Thank you all very much for your statements.
	Thank you, Mr. Chairman.
	Mr. Boozman. What do you all do in civilian life?
	Capt. Fessenden. We now work full time for the National Guard. We l
ike it that much.  Before I was a Program Manager with Thompson Financial in 
Boston, but I came back, like a lot of soldiers, and said I can't go back to 
that. So, I now work for the 12th CST, I'm an Operations Officer for the 
Civil Support Team in New Hampshire.
	Mr. Boozman. Okay.
	Capt. Hennessy. I'm the AGR Program Manager for the Human Resource 
Office with the New Hampshire National Guard.
	I can say the same thing as Captain Fessenden, but I was dealing 
with, I didn't think I was going to be able to come back to the States, and 
I thought I was going to have to find a civilian job, and I did some serious 
reflection on, you know, because you are military, and not understanding, it 
may be a little bit harder than if it was a civilian employment. And, I can 
say that once again the Reentry and Reunion totally, totally switched my mind 
set, and said, I not only want to come back, but I am so honored and 
privileged that I can remain a full-time employer, and a lot of my soldiers 
started asking, hey, how do I get, you know, in the system as full time, 
because they are so encouraged.
	Sgt. Bright. Sir, I'm a soldier full time, have been.
	Mr. Boozman. Congressman Bradley.
	Mr. Bradley. Thank you very much, Mr. Chairman, and I'd like to join 
with Congressmen Michaud and Boozman in thanking you, both for your service 
overseas, but, perhaps, just as importantly, your service home, and trying 
to help your colleagues and people under your command transition back into 
civilian life.
	A couple of questions. How difficult is it to deal with some of the 
resistance that some people would have to this type of, you know, the mental 
health counseling, and the one-on-one session with a counselor, and what do 
you do to deal with that?
	Capt. Fessenden. Well, I can tell you personally, it's very 
difficult. Colonel Carter and I had a phone conversation one night, as she 
called me because there was a lot of resistance from one of 
my platoons. It's difficult, I've found, because a lot of times it's the 
leadership, it's the leadership that makes incorrect assumptions about their 
soldiers. We assume as the leaders that the experience that we're having is 
the same that all of our soldiers are having.
	So, you know, I generally had a good transition back. I didn't have 
major issues when I came back, but we have to remember that some soldiers 
come from different places in life than we do. So, there are a lot of issues 
out there, and there is still a mentality in the military that I am less 
of a soldier if I need some sort of counseling.
	And, not only that, but every soldier, no matter what your mission 
is over there, every soldier says, well, I didn't have it as bad as X. I 
didn't have it as bad as those guys. So, if there were soldiers dying, then 
who am I to go get counseling when I come back alive. So, there's 
somewhat of a guilt factor, but you have to overcome a lot of that.
	So, it seems, I know, sitting here it seems, well, why wouldn't a 
soldier go get help, but there's a lot of feelings of letting down your 
fellow soldiers, and the fact that you are going to be less of a soldier, 
plus the realistic, not realistic, but some of the more just, you know, 
grounded issues that Sergeant Major talked about, about what if my commander 
finds out about this, what's going to happen.
	I think what needs to happen is, the issues that I talked about 
before, as a Sergeant Major, as a Colonel, as a Captain, we can't be the 
ones selling the program. I mean, we have to set it up, but it needs to be 
the squad leaders, like Sergeant Bright, they are the ones who need to push 
this thing. They are the ones that need to say, because Sergeant Bright, 
you know, slept in that bunk bed right next to that guy, he went out on 
missions with that guy, and much more than I did, he knows those guys. So, 
those guys, you know, they look up to their officers, and senior NCOs, but 
it's those E6s that they are working with that they say, gee, if that guys 
accepts it than I'm going to accept it.
	So, you need to filter it down, I think, from the top leaders, and 
you need to sell those E6s, E5s, those junior leaders, on the program.
	Capt. Hennessy. I think I would concur with that. I know that a lot 
of people are close minded to it. I think my community maybe accepts it 
maybe a little bit better than Captain Fessenden's, just the nature of the 
type of units that we have.
	And, I know what's helped is, I shared openly, I'm a very open 
person, you can ask anyone, I share openly what I've gone through, 
experiences, that it's okay, that it's expected, and then also, like he said, 
you are getting, you know, the one or two soldiers that are at that rank 
level, or that live in the trucks with my soldiers on a daily basis, the 
ones who are using the program, because there are a lot using the program, 
to talk to the other ones.
	And, like he said, soldier-to-soldier selling. I know Colonel Carter 
has got a great story about, I think it was an E5, or an E6, handing another 
soldier a Vet Center card, and that's really the best sell, because -- open 
communication too, I mean, us even talking about it, even getting publicity, 
to the combat strike teams in Iraq, that them finding the importance of 
mental health issues even when we are in theatre. That mantra changing 
throughout the military is really how we are going to break down the barriers 
the most.
	Sgt. Bright. I think one of the biggest things to do is, let them 
know that they are not going to be in problem, that it's okay. And, working 
with them every day, you know, you can talk to them and you can bring it down 
to their level, to their understanding, somebody is not going to think less 
of them, they are not going to think they are any less of a soldier, any less 
of a person, if they go and get this help.
	Sergeant Major, again, you know, it's still out there that you go 
talk to somebody, it's going to end up on your military record, you are done, 
you are not going to get a security clearance, you are not going to be 
considered for a promotion, it's not true, but they don't realize that, and 
they don't understand that.
	So, just talked about it, breaking that barrier down to start with 
is a good way to get theses soldiers in and get them talking.
	And, I think also maybe taking their first line leaders, the people 
that are with them, immediately, not that I personally would want to go 
through 30 hours of training like that, but let's help teach those people that 
this is a sign, this is a real sign that this person needs to get help. So, as 
I'm talking to Private Snuffy, I can pick up on some points that, okay, he 
really has an issue, you know, we need to get him in to see somebody, we need 
to get him -- I need to maybe push him in that direction a little bit.
	Mr. Bradley. Thank you.
	One of the other things that your testimony this morning has brought 
to mind is, the way the program is structured primarily has the three-day 
situation where, you know, there's an awful lot crammed into three days when 
you first get back to the States.
	What happens in a situation where people get through that, everything 
looks fine, but over the course of time problems develop that aren't caught 
in that first three days, and how do you monitor that, and, you know, try to 
then get these people back into the situation?
	Capt. Fessenden.  Yes, I can actually talk to that. Sergeant Bright 
and I were just mentioning it. We were sitting out there listening.
	The key for this, and what needs to be, I think, really enforced, 
what makes it difficult for a lot of National Guard units, is that the chain 
of command needs to stay together. The leadership needs to stay together when 
you get back. It doesn't stop the day you get back.
	And, it seems like a commonsense thing on active duty, because 
everybody comes back together, but my company came from four different units. 
We pulled them together to form my company.  Capt. Bergner was the same, she 
had the same issue. 
	So, a lot of times with the National Guard you don't have one unit 
that deployed, you pull from all over. I had people, I had a soldier from 
Pennsylvania who came up and joined the Guard the day before we were getting 
ready to go. He joined to deploy with us. We had people from Maine, 
Connecticut, so you've got soldiers from all over the place. The chain of 
command needs to stay together.
	Unfortunately, what happens is, these soldiers come back and they 
get split all back, and one of the things we learned is that those units 
have to stay together so that they can maintain that leadership and maintain 
the care of their soldiers.
	The other point is that this three-day program is just the beginning 
of the process.  So, we get back and we meet during drill weekend, I think 
throughout the state it's been generally accepted that the first goal of the 
first couple drills is just to get the guys back. If you do nothing else but 
get everybody together and just talk about their experiences, get them back 
in uniform, get them talking to each other again, even if we don't go to the 
field and train for that weekend, that's okay, but get the guys back into 
uniform so they can start sharing their experiences again.
	So, that's important. This is an ongoing process -- it's a process 
that's still going on with a lot of soldiers, it hasn't ended at the end of 
those three days.
	Capt. Hennessy. I think how you reach out or you get that is, like I 
talked about, maybe creating a model over a period of time, so, you know, at 
that six months, at that 12 months mark, and also identifying, like I had 
seven soldiers from Vermont, 32, you know, from different units within New 
Hampshire, but the seven from Vermont were probably the hardest, because 
they are off into Vermont and I don't know what Vermont's program is, but 
from the feedback I've gotten in talking to a couple of the soldiers there's 
not a whole lot there. So, just making sure these soldiers are tracked, and 
we do a six month, 12 month follow-up, because a lot of them won't admit 
it until the six months.  I've had those coming in, and I'm sure we'll see 
more at the 12 month mark.
	Capt. Fessenden. Going back to what we've alluded to earlier. In my 
eyes, it comes back to leadership checks. While you are in the theatre of 
operations, you constantly, as a leader, check on your men. If they are on 
night shift, you are on day shift, you make it a point, you get up in the 
middle of the night and you go out and you check on them and see how they are 
doing at the post. You make sure they are fed, make sure they are warm, you 
talk to them, you take a few minutes out of that.
	I don't necessarily think it needs to be set down and put on to a 
timetable where at six months you make a phone call to everybody. I think it's 
important. They are my friends, and I miss them just as much as I hope that 
they miss me sometimes, and, you know, you always want to talk about things 
yourself. Pick up the phone, you know, every once in a while, go through 
you're all alert roster, give them a call and ask them how they are doing. 
You know, and if somebody says I'm busy with the kids, I'm changing diapers, 
I've got to go right now, you can probably tell that they have reintegrated 
into their life pretty good. You know, if somebody gets on the phone and 
wants to talk about, you know, for two hours about the time when a rocket hit 
our camp, it gives you a pretty good indicator that there may be something 
there.
	But, I think just following up, being a leader, even though you have 
moved out of your unit, or moved off to different places, you can still keep 
in contact with them.  You know, you may come to a point that one of these 
guys says, don't call me anymore, drive on with it, but, you know, you 
still do your part.
	Mr. Bradley. One last question.  There's been, with the Guard and 
the Reserves nationwide, especially in light of the extended call-ups that 
so many of the folks such as yourselves have had to endure, and the families, 
and the sacrifice that's involved. A number of individuals have chosen not 
to reenlist in the Guard, so my question is, you know, on a small basis that 
you have to have looked at the transitional programs, do you feel, number one, 
that it is helping to aid retention, and also for those that have stayed in 
how is it helping to improve the readiness of the units, in having, you 
know, this program, especially to get, you know, back to the question that 
I asked General Young about using this program as a model for other states, 
and the success in readiness and retention, I think, is something that, you 
know, the military leaders would look at as incredibly important for 
the country.
	Capt. Fessenden.  I think everybody in the military, certainly the 
leadership, recognizes that the number one key to keeping a soldier is to 
keep his family happy, keep his family involved, and give his family the 
knowledge and the predictability of when that soldier will be done, because in 
the end it's that spouse, really, that I found that makes the decision as to 
whether a soldier stays in.
	I've had soldiers that have not wanted to -- that have wanted to get 
out, and their wife has said, I enjoy the checks, they may enjoy the time 
away on the weekend when he's gone, I don't know, but they say you are not 
getting out, and I've had just the opposite, soldiers that come and 
say, you know, what, I love it, I love it, but unfortunately it's too much 
on my wife, and she's told me that I have to get out.
	So, I think what this three-day program does is, as much as it takes 
care of the soldiers, it takes care of those family members, and it pulls 
those family members in, and it shows them that there's a caring organization 
that cares about them, that they are not alone.  Not only that, you have 
these young families, a lot of them are not tied into their community, so 
their best friend, and sometimes one of their only friends, is their husband 
who has now left for a year. So, now all of a sudden, through the family 
support group and then through programs like this, you are able to 
introduce them to a bigger network of people that care about their well-being.
	So, in the end, when that soldier comes back, you would have sold 
that spouse more on the importance of the Guard. So, I think that's the 
biggest thing about retention that it does.
	I've completely forgotten your second question, sir, so I apologize.
	Capt. Hennessy. I think retention, definitely, readiness, definitely, 
the bottom line, like Captain Fessenden, you can sum it up in one word, and 
that's caring, and, you know, if you have an organization that cares about 
you, and shows that they care about you and your family, you are 
going to have better retention and you are going to have better readiness, 
because if you show a soldier you care, they will do absolutely anything for 
you. It's amazing.
	So, yes, on both.
	Sergeant. Bright. It's definitely a necessity.  When you leave the 
SRPs and the three-day program that you've gone through when you come back 
from deployment, everything is in order, or is very close to being that way, 
and it's going to help it, and the retention, again, you know, if 
you have a soldier that comes back, and this is kind of reiterating what they 
said, that has pay problems, financial problems, home problems, and nobody is 
there to help them, they are not going to want to continue their career. They 
are just going to decide, I've done my time, this wasn't for myself and my 
family, and they are going to move on.
	Just one other quick point, sir, is that, and I think this gets 
forgotten a lot, is that a lot of these soldiers have deployed are typical 
soldiers that show up on Friday night or Saturday morning and they deploy, 
they drill their weekend, and then they go home, and they don't -- some of 
them don't care a whole lot about their career, career management. They get 
their drill pay and they go home.
	But, then you take them out and have them committed for a year or 
year and a half to something, and all of a sudden now the Guard becomes more 
important to them. So, they come back from -- they'll ask you questions that 
they never cared about before, what do I have to do to get promoted, and you 
say, the last five years I've been telling you, you know, do this, and you 
haven't cared.  They care now, all of a sudden now they know who the leaders 
are, you know. A lot of them would not have known who the leaders are in the 
state, they know their platoon sergeant, platoon leader, their company 
commander, and that's it, but now all of a sudden they know the state 
leadership, and they feel like, and they are right, is that they are owed 
something now, this is as much their organization as anybody else.
	So, when a soldier comes back, if you don't make them feel part of 
the organization, they say, I've just deployed and given a whole lot, and 
this is how I'm treated. So, the soldiers become much more demanding, 
rightfully so, I think.
	So, it's great as an organization to have soldiers that care, but 
then it makes our challenge even higher. Now we need to provide them, you 
know, these type of services.
	Mr. Bradley. Thank you very much, great job.
	Mr. Boozman. I think, Captain, with a wife and three daughters I can 
relate to the families where the females have a great deal to do with the 
decision-making process.
	I want to thank you all so much.
	Do you have anything else, Michael?
	Mr. Michaud. No, thank you.
	Mr. Boozman.  Again, we thank you so much for your service, for 
your willingness to go and do what you've done.
	And, then as was provided by the rest of the Congressmen, your 
willingness to come back and then actually take care of the individuals 
that you went with.
	And again, we truly do appreciate you all, and we appreciate the 
good job that you are doing. That's why we are here, is to try and model what 
you've successfully done here throughout the rest of the country.
	So, thank you again.
	Our final panel doesn't wear uniforms, but they represent many of 
the agencies that make TAP work. We have with us today Tim Beebe, Northeast 
Regional Manager, Readjustment Counseling Service, Veterans Health 
Administration; Mr. Dave Houle, Regional Administrator, for the U.S. 
Department of Labor's Veterans' Employment and Training Service; Ms. Mary 
Collins, from the New Hampshire Small Business Development Centers, and the 
Association of Small Business Development Centers; Mr. Jim Whitson, Eastern 
Director of the Veterans Benefits Administration; and he is accompanied by 
Ms. Maribeth Cully, Director of the Manchester Regional Office.
	We want to welcome each of you, and let's start out with Mr. Beebe.

STATEMENT OF MR. TIM BEEBE, NORTHEAST REGIONAL MANAGER, READJUSTMENT 
COUNSELING SERVICE, VETERANS HEALTH ADMINISTRATION; ACCOMPANIED BY 
DAVE HOULE, REGIONAL ADMINISTRATOR FOR VETERANS' EMPLOYMENT AND TRAINING 
SERVICE, DEPARTMENT OF LABOR; MARY COLLINS, STATE DIRECTOR, NEW 
HAMPSHIRE SMALL BUSINESS DEVELOPMENT CENTERS, ASSOCIATION OF SMALL BUSINESS 
DEVELOPMENT CENTERS; AND JIM WHITSON, EASTERN AREA DIRECTOR, VETERANS 
BENEFITS ADMINISTRATION, ACCOMPANIED BY MARIBETH CULLY, MANCHESTER REGIONAL 
OFFICE DIRECTOR, VETERANS BENEFITS ADMINISTRATION

STATEMENT OF Mr. TIM BEEBE

	Mr. Beebe. Good morning, Mr. Chairman.
	Mr. Chairman, and Members of the Subcommittee, I appreciate the 
opportunity to appear before you today and discuss the activities -- 
	Mr. Boozman. Can you flip your -- I think your -- or turn it.
	Mr. Beebe. -- on the VA Vet Centers program and the role it plays in 
providing outreach and care to veterans returning from Operating Enduring 
Freedom and Operation Iraqi Freedom. I'll also briefly describe the role of 
the Vet Centers in the recent New Hampshire National Guard Reverse Soldier 
Readiness Program. 
	I'd like to also mention here with me today is Mr. Charles Flora, 
Associate Director of the Vet Center Program, and he's here from Washington.
	The Vet Center Program observed its 25th year serving veterans this 
year. The program was originally established by Congress in 1979 to meet 
the readjustment needs of veterans returning from the Vietnam War.
	From the outset, Vet Centers were designed to be community-based, 
non-medical facilities, offering easy access to care for Vietnam veterans 
who were experiencing difficulty in resuming a normal life following their 
service in a combat zone.
	Vet Centers then, as they are today, were intended to be entry 
points for healthcare services and counseling services for veterans.
	We would also provide readjustment counseling and job counseling, 
benefits counseling, and referrals to community agencies, and other services 
as needed in particular localities.
	Additionally, and by design, most Vet Center staff are veterans 
themselves and serve as counselors and role models to veterans in need. One 
of the "firsts" of the program in 1979 was the eligibility of family members 
for assistance at Vet Centers also, and that exists today.  I think we 
were one of the first services within VA to offer eligibility for families 
of veterans.
	Twenty-five years later, following the grassroots popularity of the 
program, eligibility for Vet Center readjustment counseling services has 
expanded to include all combat veterans. We've seen veterans from World War 
II, Korea and current wars and conflicts. I think our oldest veteran 
in care at the moment is 91 years old.
	The Vet Center program also provides bereavement counseling services 
for family members of those soldiers killed while on active duty in service 
to their country. In addition, the Vet Centers provide counseling to veterans 
who experienced sexual trauma while on active duty.
	The program has grown from its original small number to 207 Vet 
Centers nationwide, located in all 50 states, and in Puerto Rico, the Virgin 
Islands, and the District of Columbia.
	The Northeast Region is comprised of eight states, which is all of 
New England, New York and northern New Jersey, for which this regional office 
has administrative authority.
	Last year, the Under Secretary for Health approved an additional 50 
positions for the Vet Center program to provide outreach and assistance, 
specifically, to returning OEF/OIF returnees.  The Northeast Region received 
eight original positions from this nationwide allotment, and filled 
the positions with OEF/OIF veterans. 
	This fiscal year, the region received another seven positions, and 
we have filled, or are interviewing for, seven veterans for these 
newly-created positions as well.
	As part of the program outreach campaign, Vet Center clinicians began 
providing education and outreach information for families of deployed Global 
War on Terrorism soldiers soon after the first National Guard and Reserve 
troops deployed almost two years ago. Part of this outreach effort was to 
inform National Guard leaders of Vet Center services, to facilitate early 
contact and a smooth transition for returning veterans.
	Late last year, New Hampshire Guard leadership met with the 
Manchester, New Hampshire Vet Center's team leader to discuss the potential 
Vet Center role in developing their RSRP program, for soon returning New 
Hampshire Guard men and women. In addition to VBA and VA participation, the 
National Guard in New Hampshire was seeking an organization that understood 
the military culture and could provide hour-long, individual counseling and 
assessment sessions for each returning soldier.
	Following extensive consultation, which we heard about today, with 
their active duty counterparts, the National Guard in New Hampshire concluded 
that, in order to de-stigmatize the soldiers asking for help, individual 
counseling would be a core component of this initiative for all 
returnees. Successive planning meetings between New Hampshire Guard 
leadership and Vet Center Northeast Regional Office staff reinforced the 
need for a collaborative effort to meet New Hampshire National Guard goals.
	The Vet Center's 25-year history of working with combat vets to 
overcome the stigma associated with seeking professional help, plus the Vet 
Center program's understanding of military culture and experience, helped 
contribute to the inclusion of Vet Centers in the Reentry Program.
	During the implementation period of January 20th to March 7, 2005, 31 
Vet Center clinicians from 16 surrounding Vet Centers assembled at the 
Manchester VA Medical Center, over 18 work days, to provide individual, 
hour-long assessment sessions to over 810 New Hampshire veterans returning 
from duty in Iraq. Using an intake protocol specifically designed for this 
purpose, Vet Center counselors, many of whom were themselves combat veterans, 
assessed all returning veterans for depression, acute war stress reaction, 
suicidal/homicidal ideation, and any other readjustment issues to include 
emerging family issues.
	Since completion of this primary phase of the project, the Manchester 
Vet Center has seen an additional 14 Afghanistan veteran returnees, and we 
continue at the Manchester Vet Center on a weekly basis to see small groups 
of returning veterans from the Global War on Terrorism who aren't part of the 
main group that returned. So weekly, there are weekly assessment sessions 
going on there still.
	So, as of this writing, our most current information as of about 30 
days ago was, a total of 838 New Hampshire Guard vets have been seen by Vet 
Center staff in individual, confidential counseling sessions. A service plan 
was developed for each veteran returning. It was reviewed with 
the soldier, during the course of the counseling session, to ask what their 
needs might be and how we could best help them in the future.
	Of the total number of veterans seen, 402 (or about 48 percent) asked 
for follow-up care within 30 days of being home. Most said, "I'm okay now, I'm 
not sure how I'll be in a month or so, so give me a call. I would appreciate 
a phone call from the counselors to see how I'm doing then, but I'm anxious 
to be home," and we did that.
	Currently, there appears to be about 145 to 150 National Guard vets 
currently being seen on an ongoing basis at area Vet Centers (or about 17 to 
18 percent of the returnees are currently in treatment), and we use the number 
three or more visits to quantify someone as being in treatment, as a vet in 
treatment, because there was an initial mandated visit that might have asked 
for follow-up call, which we completed, and we thought that three visits or 
more meant someone came back on their own to see us. So, the veterans we are 
seeing currently, the 18 percent or so, 17 to 18 percent, were folks with 
three visits or more at a Vet Center, the area Vet Center.
	I want to say this publicly, because the roots of this, the origins 
of this, actually, the idea, came from the veterans that we see, the Vietnam 
veterans who implored us, as the soldiers were being deployed first in Persian 
Gulf I a decade ago, but now on the Global War on Terrorism. We 
at the Vet Centers, because the majority of us are veterans, hear it from the 
soldiers on what's best for the soldiers returning, and they want to know in 
no uncertain terms in soldier language what we are doing (or what we plan to 
do) for those vets returning from overseas now, and because the majority of 
the veterans we see are Vietnam veterans, who had no homecoming whatsoever, 
as we know, our feet are being held to the fire, so to speak, by the very 
veterans we treat daily in the Vet Centers. So, we are held accountable in 
360  degrees here, I would say, in many ways, and the individual veterans said 
to us long ago, "plan to do something that wasn't available for us."
	And so, within the Vet Center program, we started to do that. We are 
working on this individual counseling notion, I think it's by extreme good 
fortune that we met Colonel Carter, with her request for the National Guard.  
We are on that trail. We were thinking about doing that work, and it was 
fortunate for all of us, we think, most importantly for the returning 
soldiers, that we are able to work cooperatively to do this together, and 
it's both an honor and a privilege, and I mean that sincerely from the Vet 
Center side, to do this.
	Thank you for your time.
	[The statement of Mr. Beebe appears on p. 86]

	Mr. Boozman. Thank you, sir.
	Mr. Houle?
STATEMENT OF DAVID HOULE

	Mr. Houle.  Chairman Boozman, Ranking Member Michaud, Congressman 
Bradley, the mission of the Veterans Employment and Training Service is to 
provide veterans and transitioning service members services to succeed in the 
21st Century workforce.
	One of the ways that we meet that mission is by providing employment 
workshops to the active duty as well as Guard and Reserve service members. 
This really is a collaborative effort, as you've heard already. DOL works 
closely with our partner agencies, the Department of Defense, Department of 
Veteran Affairs, State Workforce Agencies, the Vet Centers, et cetera, in 
providing TAP. Our goal is to provide employment workshops at every location 
requested by the Armed Forces.
	DOL facilitated workshops, a comprehensive two and a half days, 
three days, participants learned about job search, career decision-making, 
current occupational and labor market information, resume cover preps, 
interviewing techniques, et cetera. Participants are also provided 
an evaluation of their employability relative to the job market, to maintain 
the high quality of service delivery. To ensure uniformity between these 
locations nationwide, all workshops use a common workbook and program with 
instructions and all facilitators are trained by the National 
Veteran Training Institute in Denver.
	In Fiscal Year 2004, approximately 133,000 separating military 
personnel went through approximately 3,397 employment workshops, both 
nationally and globally. In Fiscal Year 2005, we expect that we are going to 
raise that number to approximately 140,000 and about 4,000 workshops.
	Our state directors work directly with National Guard and Reserve 
component commanders, as you heard Colonel Carter mention earlier, to make 
special arrangements following demobilizations to present a modified TAP 
employment workshop to Guard and Reserve service members. We also contacted 
each of the state adjutant generals to offer outreach assistance to 
returning Guard and Reserve members during that demobilization process, and 
we will provide any unit with a workshop upon request.
	We presently have pilot initiatives underway in places like Oregon, 
Michigan, Minnesota, and Massachusetts will be standing up their mini TAP 
initiative for approximately 150 Guard members on October 1st and 2nd.
	VETS has supported the New Hampshire Joint Initiative called the 
Reunion and Reentry from Combat Program. The VETS role in this joint 
initiative was to collaborate with the New Hampshire National Guard, both 
Army and Air, the Department of Veteran Affairs, especially the 
Vet Centers, the Employers Support of the Guard and Reserve, as well as a 
key player for us, the New Hampshire Employment Security Agency, to develop 
a program to provide employment-related information to Guard and Reserve 
forces returning from deployment.
	Information stations from each of these partner agencies are 
co-located in one central area during the demobilization process, to make 
information and services available, or to determine follow-up activity.  
These would include such areas as reemployment rights under USERRA, and in 
some instances complaints or forms are actually filled out at the time, 
guidance is provided.  There's also, as you heard, recognition of employer 
through the Employer Support of the Guard and Reserve and also informal 
mediation guidance provided by ESGR.
	Employment-related services for those seeking jobs or seeking 
training, including spouses, is provided by the New Hampshire Employment 
Security Agency, as is unemployment compensation information, and in some 
cases claims can actually be taken at that site.
	During a mini TAP such as this for Guard and Reserves, all 
demobilizing service men and women and their spouses are given an assessment 
interview by State Veterans Employment staff, that's our DVOP and LVERs.  
For job seekers seeking training opportunities an on-site assessment 
interview is conducted and follow-up interviews scheduled as needed.
	DVOP and LVER facilitators are there, as well as our State Director, 
John Gonya, New Hampshire Employment Security Policy, as stated recently by 
the Commissioner, is that an employment-assistance workshop will be made 
available at any time and any location state wide to suit the needs of our 
returning troops.
	And, Mr. Chairman, if I may offer just an aside, I believe after 
listening to the testimony this morning the success of the New Hampshire model 
is a reflection, I think, not only of the commitment and cooperation of the 
agencies that you've heard here this morning, that's a key role, 
but I think most of all it's a credit to the men and women who serve in 
uniform and who have once again stepped forward to acknowledge issues, to 
come forward and ask for the assistance that they need.
	Coming from a generation where that was a little more difficult at 
times, I am ever so proud of the men and women who have done that and are 
doing that now. 
	That concludes my statement, Mr. Chairman. I'll be happy to answer 
any questions that you may have.
	[The statement of Mr. Houle appears on p. 88]

	Mr. Boozman. Thank you.
	Ms. Collins?


STATEMENT OF MARY COLLINS

	Ms. Collins. Thank you.
	My name is Mary Collins, and I am State Director for the New 
Hampshire Small Business Development Center, and also I'm representing the 
Association of Small Business Development Centers.
	I'm speaking this morning regarding access to business and people 
that are involved in business. I have submitted my written testimony, and I 
have to admit I am going a bit off track with my remarks, based on some of 
the things I have heard here today.
	Looking back 30 years ago, I was the spouse of an Army Reserve 
person. I can't imagine in my home, having two young children at that time, 
what it would have done to us to have had someone deployed for the length of 
time that our Reserve units are going. I know that my husband was activated 
for a short two-week period, federally activated, and it made a huge 
difference in our life.
	The New Hampshire Small Business Development Center offers 
confidential, one-on-one business counseling at no cost to the client. In 
the last year, we worked with more than 3,500 business owners and aspiring 
entrepreneurs in the state.
	SBDCs provide full-time assistance. We spoke earlier of SCORE, our 
SBDC counselors are there full time to work with small business owners. In 
New Hampshire, more than 96 percent of our businesses are small businesses. 
We also work very closely with distance learning. We are activating many of 
our educational and training programs to be more tuned into that.  In fact, 
it was at a National Guard Armory in Concord back a few years ago that I 
first learned about the distance learning network that is actually through 
the National Guard in New Hampshire.
	The SBDC is part of a national program.  Here in New Hampshire, we 
are an outreach program at the University of New Hampshire, and have offices 
located throughout the state. The Association of Small Business Development 
Centers represents SBDCs in every State of the Union, as well as the 
territories, Guam, Puerto Rico, Virgin Islands, American Samoa. I have a 
counterpart in each of those states, Arkansas, Maine, both being represented 
by those.
	The SBDC network is the Federal Government's largest small 
business management and technical assistance program, with approximately 
1,000 service centers nationwide, serving more clients than all over Federal 
management and technical assistance programs combined. The SBDC's network, 
last year approximately 8 percent of the clients served were veterans.  This 
only counts the self-declared veteran. We serve between 50,000 and 60,000 
self-declared veterans annually, and we know the numbers are larger because 
many of our clients who are veterans choose not to self-identify their 
veteran status. This would be on the Federal forms when they come in for 
counseling.
	Last year, 12 percent of New Hampshire SBDC clients indicated that 
they were veterans, 4 percent greater than the national network.
	The impact of activation of self-employed individuals and their 
families can be dramatic to small businesses. Imagine you are the owner of 
a firm employing ten or 20 employees, and you are called to active duty along 
with another of your employees. That business could well have a difficult 
time staying profitable. Sales are likely to decline, other employees seeing 
the firm struggling are likely to seek other more secure employment.  You 
return to either a firm that is actually on the edge or a firm that has 
collapsed. The economic impact is staggering for the individuals involved.
	We have a difficult time even planning our training and educational 
programs on a regular basis to really accommodate our small businesses, 
because they can't be away for a great length of time during the day.  So, 
imagine a small business owner who has left for ten months, 12 months, 
and what it may do to their business.
	For employees who are called up, the Uniformed Service Employment 
and Reemployment Act of 1994, the primary statute governing service members' 
employment rights, assures they will be employed by their civilian employer 
after serving on active duty. However, this Act provides no protection to a 
self-employed person who finds his or her business has gone out of business 
during active duty.
	The SBDCs are highly capable of working with small businesses and in 
preparing people for time away from their businesses. When essential 
business owners are activated, one of the things that is left behind most 
needed is training. SBDCs can provide a wide array of management, 
financial and marketing training to those in the firm who shoulder the 
responsibility of keeping the firm going.
	The ASBDC, the Association of Small Business Development Centers, 
is considering a proposal to reduce all training fees for families and 
employees of small businesses whose owners or essential employees have been 
called to active duty. This could pose financial challenges for many 
SBDC service centers, many of whom have seen no increase in Federal funding 
or state funding since 1997. Here in New Hampshire, we try to serve from 
six regional locations. In the last three years we have reduced our staff 
of counselors by one half. The access to Federal dollars and state 
dollars, as all of us know, is much slimmer, but we are still serving 
those needs.
	In an effort to try and prevent problems becoming even more 
widespread, we would recommend that the leadership of the Guard and Reserve 
units who have not been activated undertake a concerted effort to identify 
those in their units that are self-employed, and then work closely with those 
of us, the SBDC, and the SBDC network, to identify what we can do for these 
people.
	When a small business appears to be having problems, the 
all-to-frequent reaction is that increased access to capital will solve the 
problem. This is not necessarily the case. SBDCs have a long and successful 
history of helping small businesses gain access to capital, in fact, each 
week as State Director that is usually the phone call I take, someone 
looking for a grant, don't have grants, but dollars. However, when you work 
with these businesses, you find out that what they really need is a 
long-term sustainable plan for their business, and that would consider 
stepping outside of their business for a short time and being able to have 
someone to take charge for them.
	This involves training. Right now, the New Hampshire SBDC is 
offering the Kauffman Foundation's FastTrac entrepreneurial training. 
Almost 14 years ago, I came to work for the SBDC right here out at Pease as 
a new person, I was hired with Department of Defense dollars that were 
for people transitioning out of the military, looking for new careers and 
entrepreneurship. Once again, we are looking at offering services to those 
of our military who are returning, and we can do this through many of our 
training programs.
	Thank you all for allowing us to present our testimony, our written 
testimony, and I'm happy to take your questions.
	[The statement of Ms. Collins appears on p. 93]

	Mr. Boozman. Mr. Whitson.

STATEMENT OF JAMES A. WHITSON

	Mr. Whitson.  Good afternoon, Mr. Chairman, Members of the 
Subcommittee.
	I appreciate the opportunity to appear before you today to discuss 
the role of the Department of Veterans Affairs in providing transition 
assistance for members of the National Guard and Reserve. I am accompanied 
today by Ms. Maribeth Cully, Director of our Manchester Regional Office. My 
testimony will cover the transition assistance VA provides to all service 
members, and then focus on the comprehensive transition assistance provided 
to members of the National Guard and Reserves by the Manchester Regional 
Office.
	Mr. Chairman, I respectfully request that my written testimony be 
submitted for the record and I'll abbreviate my opening comments.
	VA's seamless transition program includes the delivery of TAP and 
DTAP briefings, as well as our Benefits Delivery and Discharge Program, 
outreach to the Reserve and National Guard members is a part of this overall 
outreach program.
	While TAP briefings primarily emphasize employment preparation, 
extensive effort is devoted to a discussion of all VA benefits, access to VA 
healthcare, compensation for service-connected disabilities, the Montgomery 
GI Bill, VA home loans, life insurance, and our vocational 
rehabilitation and employment services, can all play a role in a service 
member's successful transition to civilian life.
	In 2004, VA representatives conducted more than 7,200 TAP briefings 
attended by over 260,000 active duty personnel and their families residing in 
the United States.  Under an MOA, between VA and DoD, VA representatives 
provide benefits briefings overseas as well, at bases in Europe and in Asia. 
During FY 2004, over 600 of these briefings were conducted in foreign 
countries, attended by more than 15,000 active duty personnel.
	In concert with the Military Services Outreach Program, VA continues 
our Benefits Delivery at Discharge program, through which service members 
can apply for service-connected compensation within 180 days prior to their 
discharge or retirement from service. The required physical examination is 
conducted, service medical records are reviewed, and a rating decision is 
made prior to separation. Upon receipt of the report of release from active 
service, benefits can be immediately authorized.
	Currently, BDD is provided at 140 military installations, including 
two locations overseas at Landstuhl, Germany and Yongsan, Korea. In FY 2004, 
approximately 40,000 BDD claims were taken.
	With the onset of Operation Enduring Freedom and Operation Iraqi 
Freedom, VA expanded its efforts even further within our Seamless Transition 
Program.  Outreach to Reserve and Guard members is a part of the overall VA 
outreach program. During peacetime, this outreach is generally accomplished 
on an on-call or as-requested basis. However, with the activation and 
deployment of large numbers of the Reserve and Guard members following 9/11, 
outreach to these members has been greatly expanded.
	VA has made arrangements with Reserve and Guard officials to 
schedule briefings for members being mobilized and demobilized. In FY 2004, 
VA representatives conducted almost 1,400 pre and post deployment briefings 
attended by over 88,000 Guard and Reserve members.
	VA has also published a brochure, a Summary of VA Benefits for 
National Guard and Reserve Personnel, which is widely distributed to Guard 
and Reserve units. A special page on VA's main website is dedicated for use 
by Guard and Reserve members.
	Now locally here in New Hampshire, since 9/11 more than 2,500 New 
Hampshire service members have been activated, all but approximately 265 are 
now home. The Manchester Regional Office has established contacts with the 
National Guard and Reserve units throughout New Hampshire, to ensure 
transition assistance is provided to returning service members.
	When service members are due to return home, the Air National Guard 
and Reserve units contact the Manchester Regional Office's OEF/OIF 
coordinator, and I might point out she is here in the audience today, Sherry 
Gianetsis is our OIF/OEF coordinator for the Manchester Regional Office, she 
has contacted to set up TAP briefings here at Pease Air Force Base. In 2004 
and 2005, the Manchester RO conducted 50 TAP briefings, with a combined 
attendance of over 1,900 transitioning service members. Two hundred and five 
of these individuals requested and received formal interviews with our staff 
and assistance in processing their benefits applications.
	The TAP briefings provide information on a full range of benefits, 
as well as benefits provided by the State of New Hampshire. While there, the 
OEF/OIF coordinator speaks to each individual service member and provides her 
business card to each participant.
	Our VR&E counselors also extend their outreach to injured service 
members who are hospitalized or recuperating at home and cannot attend the 
TAP briefings. They inform them and their families about vocational and 
independent living services and help them complete an application for 
benefits. The counselors make eligibility determinations prior to release 
from active duty.
	The Manchester RO's OEF/OIF coordinator maintains regular contact 
with her counterpart at VA's Manchester Medical Center. When OIF/OEF 
veterans go to the Manchester VA Medical Center for care, the coordinator 
refers them to our OIF/OEF coordinator for possible VBA benefits.  
Conversely, all veterans who come to our regional office are referred to the 
Manchester VA Medical Center.
	In addition to the Air National Guard and Reserve unit TAP briefings, 
the RO also provides transition assistance to returning Army National Guard 
service members. The Army National Guard requires that all service members 
attend reverse soldier readiness processing, RSRP. An agreement between the 
Manchester VA Medical Center and the National Guard established that the 
Medical Center will be the New Hampshire site for this RSRP program. Service 
members are required, during their RSRP, to have a VA employee verify that 
they received information on VA benefits before they can be released from 
active duty. Since January, 2005, almost 900 returning Army National Guard 
members have received information through this process.
	Mr. Chairman, we at VA are proud of our continuing role in the 
transition of service members from military to civilian life and seek to 
continually improve on the quality and breadth of our outreach efforts to 
active duty Reserve and National Guard members.
	Thank you for allowing us to appear today, and I would be pleased to 
respond to any questions.
	[The statement of Mr. Whitson appears on p. 97] 

	Mr. Boozman. Thank you, thank all of the panel, we actually 
originally had another person that was going to testify, Sergeant Shea, and 
my understanding is that he's on deployment in the Gulf Region, and his 
testimony will be submitted into the record, so we'll be glad to do that.
	[The statement of Mr. Sergeant Shea appears on p. 106]

	Mr. Boozman. Ms. Collins, you said really very well the problems 
that these people face, 94 percent small business, so many of these people 
are involved in those entities, and going for extended periods, a year from, 
I guess, when your boots hit the ground, but the pre and the post and 
all that, and many, many months.  Again, it does seem to emphasize the 
importance on really dealing with things that you just don't think about 
until you are deployed. 
	And yet, you mentioned also that there's a real problem. I mean, 
these people do have their own businesses, or employed in businesses where 
there's not a lot of extras there and so it's very difficult for them to get 
away.
	Again, that does seem to indicate that it would be important if we 
could somehow, through your agency or, perhaps, a group of agencies, provide 
this sort of expertise to supply this type of support when they are drilling, 
that's when you've got kind of a captive audience, on the weekend 
or during their drill time.
	Is there any potential for doing that?
	Ms. Collins. Absolutely.  Our biggest drawback to anything new that 
we take on is our lack of resources, frankly, with our SBDC program. SBDC 
counselors, as I said, are full time. They are either MBAs, CPAs, have owned 
their own business for a number of years, they live in the state, 
they are local, and throughout the nation there's over 1,000 centers. This 
is something that absolutely SBDCs would be willing to work with the 
Committee or anyone on in developing a program. We are very interested.
	We see many of these people in our centers anyhow. So, I think if we 
formalized it into a program, as you just said, in preparedness, ahead of 
time, so that you know how to sustain your business. I actually have a staff 
meeting going on in Concord right now, and we have some of our bankers in 
talking about the loan programs, and SBA loan programs as well. And, one 
of the questions we'll get from an entrepreneur or a statement will be, 
well, why do I need to really work on a business plan when they just do 
credit scoring anyhow.
	So, you know, we always have to come back with just what we are 
talking about here today, how do you sustain long term that business, how 
can you step out of it and know that it will continue and somebody inside 
the business has the skills necessary to carry it forward, and I think 
that is the critical piece.
	Mr. Boozman. I agree, I think that's excellent.
	One of the things we are always interested in, in that this is the 
Economic Opportunity Subcommittee, is kind of what's going on in the States. 
I don't know what unemployment is in this particular part of the country, 
but maybe somebody can tell me a little bit about that, and then also, 
about the specific things that we are trying to do to, specifically, put 
veterans to work, and for those, getting them employed, and then those that 
are under employed, improving their life.
	Mr. Beebe. Mr. Chairman, it just so happens I have those figures 
for you.  New Hampshire's unemployment in July of "04 was at 3.8 percent, 
July of "05 we are down 2/10s of a percent, 3.6. I understand the August 
figures just came out, but I didn't get those for you this morning. The U.S., 
over the same time period, was about 5.5 in July of "04, and we are down to 
about 5 in July of "05. New England as a whole was at about 4.8 in July of 
"04, we are down to about 4.6 in July of "05.
	So, in terms of New Hampshire especially, we are looking at a tight 
labor market, 3.8, 3.6 below national averages. We basically work through, 
and certainly through VETS, through our grant program for the disabled 
veteran outreach program, DVOPs, local veteran employment reps, 
LVERs, with the State Employment Security Agencies, in providing outreach 
and dedicated assistance to veterans of all eras, in terms of employment and 
training assistance.
	One of the pieces, though, that we are encountering, and I think is 
part and parcel of what we've heard here this morning, is the disruption, 
especially for Guard and Reserves. You know, when you are active duty and 
you go away for three, four, five years, you are part of that unit and 
you are gone, but when you are going back and forth there is a disruption, 
whether you an entrepreneur or an employee. And, those have -- and I think 
that by and large we've seen employers step up and do some incredibly 
generous things. Employers support of the Guard and Reserve have been a key 
player in recognizing employers that have stepped forward and gone 
above and beyond what the USERRA law requires, for example, and that's gone 
a long way.
	But, into a second, and in some cases a third deployment since 9/11, 
this is becoming problematic, but we have -- we work through, also we work 
through the vocational rehabilitation and employment unit with the Department 
of Veteran Affairs, we work jointly with the Vet Centers, and just recently 
the Secretary has announced what we are calling real life lines, and that is 
an initiative that we've started within Labor to outreach to severely 
wounded returning Iraqi and Afghan vets.  We have representatives at Bethesda 
and Walter Reed. We are tracking these individuals, and we are maintaining 
that contact.
	There's a fine line between intervention and intrusion, and when a 
severely wounded individual is recovering, balancing that, and making that 
contact at the right time, is absolutely critical.
	So, we have taken those initiatives as well.
	By and large, I think that the DVOP and LVERs have done, especially 
in New Hampshire, as a native son and so on, I've watched them work very, 
very hard, and the State Employment Service, the commitment by the 
Commissioner to do whatever, whenever, recently made publicly speaks to that 
kind of cooperation and commitment.
	Mr. Boozman.  Have we had an increase in USERRA cases? Is that a 
problem?
	Mr. Beebe. I'm sorry?
	Mr. Boozman.  Increase in USERRA cases?
	Mr. Beebe. What we've seen is, and I can speak region wide, what 
we've seen is a morphing, a changing of the issues that we're dealing with.  
You know, prior to even Desert Storm and 9/11, it often times was, I can't 
get time off to do my two weeks of annual training, or I can't 
go in for a Mood of 5 on a Friday night.  Those days are gone. Now what we 
are seeing is issues with, and again, in some cases stop loss issues, or 
retention issues, where an employer is expecting somebody back and then 
suddenly they are extended. We are seeing different changes to the issues 
that are coming forward.
	But, essentially, they are still how does the employer, you know, 
either stop gap that position, and how do they then bring them back, and I 
think part of this too, and Colonel Carter and I were talking about this last 
week, is how do you address that reentry process, how do you, for the 
individual who is shedding the uniform for a while and stepping back into 
his civilian role, how do you address that, and how are they made ready, 
how can you better make them ready for returning?
	And that, I think, is where, you know, individuals like Tim Beebe 
and the Vet Centers just play a key role.
	I was going to nudge Tim, but he was in the room in back, and I think 
that this was deja vu for us. Back in the early "80s we were discussing many 
of these same issues, the Vietnam Era. But, the key, I think, is the pieces 
that have been put together, and your soldiers have told you, it's one 
on one, soldier to soldier, it's one on one, veteran to veteran, just like 
the DVOP and LVERs and our State Employment Service, there's an instant 
credibility, there's an interest in instant trust factor when they come in 
and speak to one who has walked in their boots, and you can't get that 
anywhere else.
	So, I think that the issues are changing. Some of the cases are 
becoming a little bit more complicated, from the standpoint of, again, the 
duration and the length, but we are seeing some increase overall, but again, 
I would look to the kind of complexity of the cases that we're now 
getting relative to their number.
	Mr. Boozman. Congressman Michaud.
	Mr. Michaud. Thank you very much, Mr. Chairman.
	My first question goes to Ms. Collins. First of all, I appreciate 
all of the work the SBDC I know has done in the State of Maine, it's a great 
organization, and does a fabulous job. My question is, even though it's not 
directly dealing with SBDC, there is a Federal law that I believe 
that 3 percent of the procurement contracts are supposed to go to the 
Service Disabled Veterans small businesses. The Federal agencies have come 
no where near close to meeting that 3 percent goal.
	Has your association taken a position on trying to encourage them to 
meet that goal, is my first question. My second question, when veterans come 
to you for assistance, do you look at how, not only to help them run their 
business, but actually grow their business by matching them up with 
some of the Federal procurement programs that are out there?
	Ms. Collins. Good question, and thank you. Yes, we do these various 
things. We run procurement conferences on a regular basis. It's one of our 
goals this coming year, to provide access to all of our businesses for 
contract funding, anything that may be available through the Federal 
Government procurement system.
	We also -- and that call comes to my office frequently from small 
businesses that may be veteran owned, I know that I am eligible for certain 
amounts of percentage that is set aside for us, how do I go about this? What 
I normally do, my process would be to put them in touch with the counselor in 
the region of the state where that business is located, they know all of the 
programs to then get in touch with, and make sure that each of these 
businesses has that opportunity.
	So, yes, and I do know the State Director in Maine, he was actually 
just made Chairman of our National Board of Small Business Development 
Centers.
	But, we do this on a regular basis. Many of the programs, as you 
know, after 9/11 there were a great number of small businesses that wanted 
access to some of that Homeland Security money and opportunities, and we ran, 
in conjunction with other groups in the state, the High-Tech Council and other 
groups of business and industry associations, we ran forums providing 
information to these businesses on all of these programs that we are talking 
about.
	After 9/11, and I think one of the things that I think about now is, 
we had to work with businesses that had interruption of services for a variety 
of reasons, and we really came to hone in on our skills on what these 
businesses were facing at the time. It may be their market went away. It 
may be, as in this area of the country, many of our businesses were supplying 
the airline industry.  They were affected. Some of the people that had food 
services, they were affected. Other companies that had to downsize because 
the market wasn't there.
	So, we learned to work with these individuals when there was an 
interruption of service, and I look forward to assisting in doing that again.
	One of the other points that I'd like to make was brought up a few 
minutes ago to the gentleman to the right here, about relationships. 
Relationships to a small business are key, and a small business owner has 
relationships. When you step out of your business for a year, many of 
those people that you have relationships with and the programs have changed, 
so you need assistance in getting back in step with all of these issues that 
are going on.
	So, I think that's another way that we can help them.
	Mr. Michaud. Great, thank you.
	Ms. Collins. Thank you.
	Mr. Michaud. My next question is for Mr. Beebe?
	Mr. Beebe.  Beebe, yes.
	Mr. Michaud. Yes.
	You stated in your testimony that the Under Secretary of Health has 
approved an additional 50 staff positions for the Vet Center program and 
outreach, and the Northeast Region received eight positions.  My question is, 
since there are eight states in your Northeast Region, are each one of 
these positions in each of the states?  And, my second question, are all 50 
of these staff positions, as well as all staff positions, currently filled?
	Mr. Beebe. Yes, sir, good questions.
	The positions came to us in two groups of 50. Last year was our 
first group of 50, and our pressing need at that time, because the Northeast 
Region encompasses New York and New Jersey also, was to get Iraq vet 
returnees outreach workers to Dix and Drum right away, where hundreds 
and thousands of vets were returning.
	So, some states were shorted an outreach clinician at that time, 
but the teams in Maine, in particular, the five teams there, assured me they 
had the outreach for the returning Guard and Reserves through Chaplain 
Gibson's office covered, that if other outreach folks became available 
they would be more than happy to take that position, but they would be doing 
the outreach in the meantime.  They had those bases covered for us. So, we 
could release the early staff to Dix and Drum where we had thousands of 
soldiers returning.
	Now, at this point in time, each state will have such a position, 
and just last week the Lewiston position was filled. So, nationwide the 
program received 100 FTEE for 50 states.
	Mr. Michaud. Great.
	My next question actually is for both of you, Mr. Beebe, and 
actually, Mr., is it Whitson?
	Mr. Whitson. Whitson.
	Mr. Michaud. Whitson.
	We heard the previous panel talk about how very appreciative they 
are of these Vet Centers, and that the men and women are utilizing the Vet 
Centers and the counselors in them. And clearly, with the war in Iraq and 
Afghanistan, the whole War on Terrorism continued to move forward, 
have you had discussions with the Department of Defense, the National 
Guard Bureau, as far as what is happening out there in the field at these 
Vet Centers, are the needs being met in these areas? Do they need additional 
counselors? Have you had any discussions with DoD or the National 
Guard Bureau, is my first question.  And, if so, I'd like to know what those 
discussions have -- what the results of those discussions were.
	Mr. Whitson. With regard to outreach for Guard and Reserve, we do 
have a Memorandum of Understanding, as General Young pointed out, from the 
National Guard Bureau in Washington.
	We also have templates that have been provided for an MOA at the local 
level. So, our expectation is, at the state level the Guard and VHA 
components, VBA components, and other critical players will enter into an 
agreement on these local relationships.
	I would offer to you that our execution of those MOUs or MOAs has been 
somewhat uneven and, clearly, here in New Hampshire we have a best practice 
that we can look to and try to export.
	We have those MOAs in place and we do monitor reporting. We have 
standardized briefing packages, so we try to standardize our delivery of this 
service as much as possible, but I would offer to you that there is uneven 
execution at the local level.
	Mr. Beebe. If I may add to that response, the number referred to in 
the closing statement that I made of 18 percent of New Hampshire's soldiers 
currently in treatment centers, it's an interesting number and I'll tell you 
why. It's interesting because it's preliminary, but it's also interesting 
because about 20 years ago, 15 or 20 years ago, Congress commissioned the 
Research Triangle Institute, you might recall, to do the National Vietnam 
Veterans Readjustment Study.
	What that study was comprised of was the polling by Research 
Triangle Institute of thousands of Vietnam veterans who had been home ten 
to 15 years already from their war, and it was to ascertain, as best anybody 
could ascertain at the time, the PTSD or readjustment prevalence rate among 
Vietnam veterans. And, the study found two things. It found first of all, 
first and foremost, that lifetime prevalence rate of PTSD and readjustment 
issues among Vietnam veterans was somewhere between 30 to 50 percent overall, 
which was a large number, but distilled down over time, ten or 15 years of 
readjusting on one's own, that number became 17 percent.
	So, most folks had a difficult time adjusting from war, but somehow 
found a way, but those left afflicted, to the point of, perhaps, chronic 
disorder, without treatment or early intervention was in the 17 percent range, 
15 to 21 percent actually, 15 percent for White people, 18 percent for Black 
people, 21 percent for Hispanic people, and no one knows why there were 
cultural differences, but that's the number. So, 30 to 50 percent lifetime 
prevalency boiled to around 18 percent.
	Last year, Colonel Hoge wrote in the New England Journal of Medicine, 
in the July edition, that the DoD was estimating that there would be a 
prevalence rate of somewhere around 17 percent of PTSD with troops overseas, 
and readjustment rate issues of 30 to 50 percent.  Interesting numbers.
	We arrived at the numbers we have in New Hampshire just by that's 
what they are, but it seems to be lining up here. 
	So, the answer to your question, I think we are on the cusp presently 
with the New Hampshire model, perhaps, some projective tool here. We don't 
know yet. This is very early. So, we are looking at it closely.
	I can tell you at the moment, no Vet Center anywhere has a waiting 
list. Any veteran in need is seen immediately, just walk in the door and a 
counselor will see you, and we will maintain that as long as possible.
	Mr. Michaud. Okay.
	We heard from the previous panel that when you look at retention and 
what the men and women in uniform are concerned about, at least their 
commanding office and caring for them. I guess the follow-up question is, as 
far as it being unevenly executed in different regions, do you 
think that's a responsibility of the Adjutant General in each of the states, 
or should that be more of a responsibility for the National Guard Bureau to 
make sure that it's implemented fairly and equally all across the country?
	Mr. Whitson. That's a difficult question for me to answer. I 
certainly could say that, as was pointed out in the earlier panels, when 
local leadership is involved and committed to this type of program, that's 
the difference.  
	Generally, the other providers are -- we provide access, we are there, 
we are available, both from a VBA, and a VHA, Vet Center, DOL point of view. 
All the players are present in each locale, but I think here what we are 
seeing in New Hampshire is, the local Guard and Reserve leadership is fully 
engaged in working and providing that communication with the providers.
	Mr. Michaud. All right, thank you.
	If I might, Mr. Chairman, one last question, moving on to Department 
of Labor. On page two of your testimony you had mentioned that 133,000 
separating military personnel were trained. What type of training are you 
talking about there? Is it training for another job? 
	And then, my second part of that question is, after the three days, 
as we heard what's happening here in New Hampshire, is there any type of 
follow up that's to occur if someone needs assistance, say, six months or a 
year down the road?
	Mr. Houle. The training referred to, Congressman Michaud, really is 
the training that they get within the formalized TAP program, and that is job 
search, resume prep, interviewing skills, and even though it is for the three 
days it's a fairly intense process, and they learn about the resources, the 
other agencies that they can go to for help, and it's gearing them so that 
they can, once they have actually separated they know where to go, who to see, 
what to expect, in terms of those services.
	Things such as priority of service in the local employment agency. 
The continuum becomes, once they've separated, at that point we try to link 
them up with the Disabled Veteran Outreach Program Specialist, DVOP, the 
LVER, the Local Veteran Employment Rep, so that when they are 
separated they can go to them and get one-on-one dedicated service. Those 
folks are funded by you to serve exclusively veterans and provide priority 
of service.
	So, in that sense, hopefully, the TAP gives them the basic tools 
about knowing where to go, where to get those resources, and then how to 
apply them, and then once they are actually out looking they know they have 
a base headquarters, if you will, for job counseling, and many of the 
DVOP and LVERs will also act as screeners. They will -- if an individual, 
for example, went through the whole process, and indicated I'm fine, one 
of the things that our generation learned was that coping mechanisms work 
as long as they work, and when they stop you can crash and burn 
pretty quickly.
	So if, for example, an individual is out for a year or two years, 
and suddenly they come into the local DVOP and LVER, and they are filling out 
-- they are updating information, and they find that they had four jobs in 
the last year, their address has changed due to a divorce, et cetera, et 
cetera, there may be at that point some intervention taken by the DVOP and 
LVER to make sure that they are put back to maybe a Vet Center counselor, 
maybe voc rehab, because certainly if they have PTSD that's a compensable 
disability, and if they are young, or old for that matter, and they 
are under voc rehab we can get them retrained through that process.
	So, there is that continuum, but that first step is that TAP 
process, and that is a far cry from the separation briefings that some of 
us got at various times in our career.
	So, I hope that that answers your question.
	Mr. Michaud. What does the Department of Labor do, for instance, in 
Maine where 16 percent of our population is veterans?  We are near the 
highest percentage in the country, and I notice you had talked about some 
unemployment figures which don't tell the true story because it's usually 
always much higher than what's actually there, because if you fall off the 
unemployment roles you are no longer counted, what does the Department of 
Labor do as far as helping veterans?
	For instance, a couple years ago there was a certain region in the 
state of Maine where unemployment rates in that labor market area, I believe, 
was over 35 percent.  There's a paper mill that had shut down, and the big 
percentage was actually veterans, and that was before -- I'm not 
sure how many of those might have been in Iraq or Afghanistan, but in a 
situation where they are not veteran-owned business, but they are affected 
because their job is no longer there, what does 
the Department of Labor do as far as trying to help those veterans out?
	Mr. Houle. In a situation where you have a large central employer in a 
small town that suddenly ceases, and you put a significant portion of that 
population on the street, there are other programs within ETA, Employment 
Training Administration. You can have things like the Dislocated Worker 
Program. We also fund the Veterans Workforce Investment program, VWIP, 
and those kinds of initiatives.
	We have rapid response teams, of which the DVOP and LVERs are prime 
players that are sent out from the local employment office, really, in order 
to -- and they set up shop often times right in the mill, if it is a mill, and 
will, you know, provide expedited service.
	The real key at that point becomes if their livelihood and a 
generational job, perhaps, has ceased, then it becomes a question of 
retraining. So, we would look through our DVOP and LVERs at what kind of -- 
if they, for example, if they have a service-connected disability they may be 
eligible for vocational rehabilitation through the VA. And, if their primary 
skill or trade has gone away, and there's nothing in the area, then they may, 
is fact, be ripe for a reassessment of that a rehab process again through the 
VA. We would look at that and, perhaps, provide a referral. 
	But, the intensive one-on-one services that the DVOP and LVERs would 
provide, they have access to the entire state, and actually they cross -- they 
often times will get job orders from the region.
	So, if you are up in Presque Isle, and you need something that is 
going to be within that three-hour commuting distance, I know this because my 
State Director in Maine, John Gay, has one of the higher travel budgets in the 
region for that very reason, we will try to then cross borders on 
referrals and work with the DVOP and LVERs on just across a state border line.
	So, we look at geographic, economic and the likelihood of employment 
scenarios in that area, and then try to do what we can to provide those kind 
of one-on-one intensive services. And, those are dedicated services, that's a 
one-on-one relationship with the DVOP or LVER.
	Mr. Michaud. Okay, thank you.
	Thank you, Mr. Chairman.
	Mr. Boozman.  Congressman Bradley?
	Mr. Bradley. Thank you very much, Mr. Chairman.
	I have no questions at this time, and I'd just like to thank the panel 
for their compelling testimony and for all the help that you provide, not only 
to folks here in New Hampshire, but around the region, and look forward to 
continuing to work with you.
	Thank you.
	Mr. Boozman.  Thank you all very much.
	Today we've heard a lot of testimony about how states take a very 
proactive stance towards our men and women coming back from war, and 
transitioning back into civilian life, and we've heard a lot of good things, 
and then some areas that, perhaps, we could even do even better with our 
help.
	So, I hope that General Young and our staff, the agencies represented 
here, will take those things back to Washington, and again, continue to make 
an improvement, that's why we are here.
	I really want to thank Congressman Bradley for his hospitality. As a 
guy from Arkansas, I would say that we've had tremendous southern hospitality, 
whatever your equivalent is for that up here.  You've beared with me, we 
haven't had to have an interpreter during this, so that's been 
good.
	And then also, Congressman Michaud, for coming over again as Ranking 
Member on the Health Subcommittee, and both of these guys being some of the 
most active members on the VA Committee in general. We really do appreciate 
them, and all that they do.
	So, do you guys have any other things?
	Mr. Michaud. No, I just want to thank you, Mr. Chairman, for allowing 
this committee hearing to happen in the Northeast. I really appreciate it, and 
that southern hospitality that you all give us up in Northeast, we really 
appreciate that.
	So, thank you.
	Mr. Bradley.  Thank you again, Mr. Chairman.
	Mr. Boozman. Thank you.
	Okay, then the hearing is adjourned, and I get to actually do my 
second command of the day, and we will retire the colors.

	[Whereupon, at 1:00 p.m., the Subcommittee was adjourned.]


</pre></body></html>
